<html>
<title> - PAID FAMILY LEAVE: THE BENEFITS FOR BUSINESSES AND WORKING FAMILIES</title>
<body><pre>[Senate Hearing 113-855]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 113-855

  PAID FAMILY LEAVE: THE BENEFITS FOR BUSINESSES AND WORKING FAMILIES

=======================================================================

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON CHILDREN AND FAMILIES

                                 OF THE

                    COMMITTEE ON HEALTH, EDUCATION,
                          LABOR, AND PENSIONS

                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                                   ON

 EXAMINING PAID FAMILY LEAVE, FOCUSING ON THE BENEFITS FOR BUSINESSES 
                          AND WORKING FAMILIES

                               __________

                             JULY 30, 2014

                               __________

 Printed for the use of the Committee on Health, Education, Labor, and 
                                Pensions


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]






      Available via the World Wide Web: http://www.gpo.gov/fdsys/

                                  
                                  
                         U.S. GOVERNMENT PUBLISHING OFFICE 

24-454 PDF                     WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
          COMMITTEE ON HEALTH, EDUCATION, LABOR, AND PENSIONS

                       TOM HARKIN, Iowa, Chairman

BARBARA A. MIKULSKI, Maryland         LAMAR ALEXANDER, Tennessee
PATTY MURRAY, Washington              MICHAEL B. ENZI, Wyoming
BERNARD SANDERS (I), Vermont          RICHARD BURR, North Carolina
ROBERT P. CASEY, JR., Pennsylvania    JOHNNY ISAKSON, Georgia
KAY R. HAGAN, North Carolina          RAND PAUL, Kentucky
AL FRANKEN, Minnesota                 ORRIN G. HATCH, Utah
MICHAEL F. BENNET, Colorado           PAT ROBERTS, Kansas
SHELDON WHITEHOUSE, Rhode Island      LISA MURKOWSKI, Alaska
TAMMY BALDWIN, Wisconsin              MARK KIRK, Illinois
CHRISTOPHER S. MURPHY, Connecticut    TIM SCOTT, South Carolina
ELIZABETH WARREN, Massachusetts

                      Derek Miller, Staff Director

        Lauren McFerran, Deputy Staff Director and Chief Counsel

               David P. Cleary, Republican Staff Director

                                 ______

                 Subcommittee on Children and Families

                 KAY R. HAGAN, North Carolina Chairman

BARBARA A. MIKULSKI, Maryland        MICHAEL B. ENZI, Wyoming
PATTY MURRAY, Washington             MARK KIRK, Illinois
BERNARD SANDERS (I), Vermont         RICHARD BURR, North Carolina
ROBERT P. CASEY, JR., Pennsylvania   JOHNNY ISAKSON, Georgia
AL FRANKEN, Minnesota                RAND PAUL, Kentucky
MICHAEL BENNET, Colorado             ORRIN G. HATCH, Utah
CHRISTOPHER S. MURPHY, Connecticut   PAT ROBERTS, Kansas
ELIZABETH WARREN, Massachusetts      LAMAR ALEXANDER, Tennessee (ex 
TOM HARKIN, Iowa (ex officio)        officio)

                    Josh Teitelbaum, Staff Director

                                  (ii)

  
  
  
  
  
  
  
  
  
  
  
  
  
  
  
  
  
  
  
  
                            C O N T E N T S

                               __________

                               STATEMENTS

.................................................................

                        WEDNESDAY, JULY 30, 2014

                                                                   Page

                           Committee Members

Hagan, Hon. Kay R., Chairman, subcommittee on Children and 
  Families, opening statement....................................     1
Franken, Hon. Al, a U.S. Senator from the State of Minnesota.....    27
Murray, Hon. Patty, a U.S. Senator from the State of Washington..    29
Casey, Hon. Robert P., Jr., a U.S. Senator from the State of 
  Pennsylvania...................................................    31
Harkin, Hon. Tom, Chairman, Committee on Health, Education, 
  Labor, and Pensions, opening statement.........................    33
Warren, Hon. Elizabeth, a U.S. Senator from the State of 
  Massachusetts..................................................    35
Murphy, Hon. Christopher, a U.S. Senator from the State of 
  Connecticut....................................................    37

                               Witnesses

Gockel, Maryella, M.B.A., CPA, Flexibility Leader, Ernst and 
  Young, Secaucus, NJ............................................     3
    Prepared statement...........................................     4
Sato, Jeannine, MALS, Director, Durham Connects, Durham, NC......     7
    Prepared statement...........................................     9
Shabo, Victoria S., M.A., JD, Vice President, National 
  Partnership for Women and Families, Washington, DC.............    11
    Prepared statement...........................................    13
Trapani, Kevin, President and CEO, The Redwoods Group, 
  Morrisville, NC................................................    23
    Prepared statement...........................................    24

                          ADDITIONAL MATERIAL

Statements, articles, publications, letters, etc.:
    Matthew Melmed, Executive Director, ZERO TO THREE............    41

                                 (iii)

  

 
  PAID FAMILY LEAVE: THE BENEFITS FOR BUSINESSES AND WORKING FAMILIES

                              ----------                              


                        WEDNESDAY, JULY 30, 2014

                                      U.S. Senate,,
                     Subcommittee on Children and Families,
       Committee on Health, Education, Labor, and Pensions,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:15 a.m., in 
room SD-430, Dirksen Senate Office Building, Hon. Kay Hagan, 
chairman of the subcommittee, presiding.
    Present: Senators Hagan, Murray, Casey, Franken, Murphy, 
and Warren.
    Also present: Senator Harkin.

                   Opening Statement of Senator Hagan

    Senator Hagan. Welcome, everyone, to this morning's hearing 
in the HELP Subcommittee on Children and Families. I want to 
thank all of our witnesses very much for taking the time to 
come and testify this morning.
    We expect to have two votes. I've already shared this with 
our witnesses. But there'll be two votes starting at 10:45, so 
we will take a quick break. We will recess for a little while 
at about 10:55, and then we'll come back and resume. This is 
such an important hearing, and I'm sorry that we have to take 
this break, but, obviously, we have work to do on the Senate 
floor.
    I urge our witnesses also to keep your oral statements 
brief to be sure that we can have some time for questions.
    In holding this hearing, I hope to bring greater attention 
to the fact that too few people in our country have access to 
paid family leave and to really encourage more businesses to 
offer their workers paid family leave by highlighting two great 
success stories. The fact of the matter is only 12 percent of 
U.S. workers have access to formal employer-provided paid 
family leave, 12 percent.
    Instead, most Americans have to cobble together some 
combination of vacation days, sick days, or short-term 
disability if they hope to take paid time off to recover from 
childbirth, to bond with a newborn or an adopted child, or to 
care for themselves or, looking at it from the other side of 
the spectrum, a seriously ill family member. Of course, not 
everyone has these options.
    Nearly 25 percent of private sector workers do not earn 
paid vacation time. Nearly 40 percent do not earn paid sick 
days, and nearly 40 percent do not have access to employer-
provided disability insurance. While I believe that the income 
women receive from disability insurance is helpful, I do not 
think that most women think of their pregnancy or childbirth as 
a disability but rather a very special capability to start a 
family that deserves the time and care that comes from paid 
family leave.
    Since access to paid family leave depends on where you 
work, there are many disparities in the kinds of workers who 
can actually take paid time off. Workers with lower educational 
achievement, workers with lower salaries, women of color are 
all less likely to be able to take paid leave. But when workers 
are offered paid family leave, moms, dads, kids, businesses, 
and the economy as a whole are much better off.
    Research has shown that paid family leave is associated 
with reduced infant mortality, with reduced depression and 
anxiety in new moms, and increased care and involvement by new 
dads in the life of the baby. Not surprisingly, paid family 
leave also improves families' finances, because it provides a 
secure pathway back to work.
    First time moms who take paid leave are more likely to be 
working 9 to 12 months after their child's birth and are more 
likely to return to the same employer and are also more likely 
to report higher wages in the year following the birth of their 
child. Now this is more important than ever, because women with 
children are primary or the co-breadwinner in their family in 
nearly two-thirds of families. And employed married women bring 
in, on average, 44 percent of their family's household income. 
If they were paid the same rate as men, that might be higher.
    Modern families just can't afford to lose a woman's salary 
when she takes time off for pregnancy or childbirth. Now it's 
clear that these benefits mean the world for workers who have 
access to them. But it's important to make clear that they are 
not benefiting at the expense of their employer. Rather, their 
employer benefits along with them.
    When employers offer paid family leave, employee morale and 
productivity increases, and turnover and retraining costs 
decrease. Cutting down on worker turnover is critical. Any CEO 
will tell you that. And we'll hear more about that later, since 
it's expensive and time-consuming to find, to hire, and to 
train new workers, which is why when the country's top 
companies announce new work-life balance policies, investors 
reward them.
    According to a peer-reviewed study in the Academy of 
Management Journal, when Fortune 500 companies announce polices 
like paid leave, their stock prices rise in the days following 
the announcement. In other words, companies shouldn't be afraid 
that they will be penalized for taking these steps. In short, 
when employers provide paid family leave, they're not just 
doing the right thing for their employees, but they're also 
doing the right thing for their bottom line.
    Now, I'm going to turn this over to our witnesses in 
alphabetical order for your valuable insight and expertise. And 
I ask that all of our witnesses keep their oral statements to 
less than 5 minutes so that we'll have time for questions.
    Our first witness is Maryella Gockel. Maryella is the 
Flexibility Leader at Ernst and Young, where she and her 
company have long been recognized for their outstanding work in 
creating a family friendly work environment by the likes of 
Fortune, Working Mother magazine, and the Families and Work 
Institute.
    Ms. Gockel.

STATEMENT OF MARYELLA GOCKEL, M.B.A., CPA, AMERICAS FLEXIBILITY 
             LEADER, ERNST AND YOUNG, SECAUCUS, NJ

    Ms. Gockel. Thank you, Chairwoman Hagan and Ranking Member 
Enzi, for inviting me to testify about the benefits of paid 
family leave for Ernst and Young, LLP, (EY), the U.S. member 
firm of the global EY organization. My name is Maryella Gockel, 
and I am the Flexibility Leader for Ernst and Young, and it's 
an honor to be here.
    For simplicity's sake, I'll refer to EY in my oral 
testimony, but please know that I'm speaking about only the 
U.S. firm. I joined EY in 1980. Both of my children are 
adopted. My son arrived in 1988, and my daughter, who is here 
with me today, in 1991. At the time, EY did not offer paid 
family leave to adoptive parents or to men. We only had medical 
leave for birth mothers.
    I secured 6 weeks off post-adoption and returned on a 
reduced schedule known as a flexible work arrangement, or an 
FWA. At the time, FWAs were ad hoc. People had to negotiate for 
what they needed. Some were lucky. Others were not. In the mid 
1990s, women were leaving at a rate 10 to 15 percentage points 
higher than men, and this was creating a brain drain and 
motivated us to find a more holistic solution.
    Today, we have nearly closed the gender retention gap. EY's 
leadership drove this change, and one of our first solutions 
was paid parental leave. In 2002, EY became the first among the 
Big Four accounting firms to adopt a fully paid parental leave 
program for men and for women, because exit interviews told us 
that work-life balance was still an issue. In the first year, 
nearly every eligible person took parental leave, including the 
men.
    Fast forward, we expanded paid time off for all primary 
caregivers. For birth mothers, this means 12 weeks of fully 
paid time off. For primary care dads and adoptive parents, it's 
6 weeks, and for non-primary caregivers, it's two. About 1,000 
U.S. professionals take parental leave each and every year, 
half of whom are men. We've found that men who take parental 
leave are real advocates for our women and great role models 
for the other men.
    EY conducts an annual survey to measure engagement, defined 
as job satisfaction, pride, and commitment. Engaged 
professionals have higher retention rates. This leads to 
improved business results, including higher revenue growth. In 
2013, we included a question on childcare responsibilities and 
found our working parents express the highest levels of 
engagement among all of our people.
    For us, encouraging parents to take paid parental leave, 
use day-to-day flexibility, or go on a formal flexible work 
arrangement is cost effective. It costs us about one and a half 
to two times a mid level employee's salary to hire and train 
their replacements, and turnover is disruptive.
    Organizations don't change overnight. At EY, we started 
with the tone at the top. Successive chairmen recognized that 
succeeding both personally and professionally is really 
important, and they modeled the behavior they wanted our people 
to embrace. There must also be grass roots support and buy-in. 
The best way to do this is through transparency and open 
communications not only about what we're doing, but why.
    Flexibility, parental leave, and related efforts are not 
silver bullets, and they may not be appropriate for every 
organization. But for us, they've led to better business 
experiences for our people.
    EY received many awards for our workplace culture, which 
signals that we are a great employer. And, in turn, we recruit 
and retain the best talent. As a result, our people deliver 
exceptional service, and this creates better business results. 
For EY, paid parental leave is a competitive advantage.
    Thank you, and I look forward to your questions.
    [The prepared statement of Ms. Gockel follows:]

           Prepared Statement of Maryella Gockel, M.B.A., CPA

    Thank you, Chairman Hagan and Ranking Member Enzi, for inviting me 
to testify today about the benefits of paid family leave on behalf of 
my firm. My name is Maryella Gockel. I serve as the Flexibility Leader 
at Ernst & Young LLP (EY), the U.S. member firm of EY, and as the 
Americas Flexibility Leader within our global organization. In this 
role, I am focused on fostering a sustainable, inclusive, and flexible 
culture that enables all EY professionals to achieve their potential 
and make a difference, wherever they come from and whatever their 
characteristics.
    I have been with the organization for nearly 34 years. During that 
time, EY and its member firms have been the recipient of numerous 
awards and accolades for our inclusive and flexible culture. Most 
recently, this includes 16 consecutive years on FORTUNE's ``100 Best 
Companies to Work For'' list and recognition as one of the Great Place 
to Work Institute's Top 25 ``World's Best Multinational Workplaces'' 
in 2012. Ernst & Young LLP has also achieved 17 years on the Working 
Mother ``100 Best Companies'' list, the last 8 years as a Top 10 
employer. We value these awards because they are a signal to the 
marketplace that we are a great employer, enabling us to recruit and 
retain the best talent.
    Personally, for my work at the firm, I received the Families and 
Work Institute's Work Life Legacy Award in 2008, and the Ted Childs 
Life Work Excellence Award in 2012. As such, I am honored to be here 
today to talk about Ernst & Young LLP's policies on paid family leave 
in the U.S.
    To succeed today, every business strives to recruit the best, 
retain the best, and help them achieve their very best. This is why EY 
has chosen to pursue a business model that promotes diversity, 
inclusiveness, and flexibility. In today's global economy, EY has 
determined that we can only succeed if we embrace people from every 
background and every experience--and that includes working parents, 
among so many others.
    First, I'll start with a few basic facts about our organization. EY 
is a global leader in assurance, tax, transaction and advisory 
services. We have about 190,000 people in member firms with offices in 
roughly 150 countries. I am confident that workplace flexibility is 
critical to our people around the world, yet we also know there is no 
such thing as a ``one size fits all'' approach to embedding it within 
our organization.
    To tell you a little bit about my own personal journey, I joined 
the U.S. firm in 1980 as a client service professional in our New York 
city office after earning my M.B.A. in accounting from Rutgers Graduate 
School of Management. In 1985, I transferred to our New Jersey office 
because it was closer to home. I believed the move would make it easier 
to have both a career and a family.
    My son arrived in 1988. He is adopted from Korea. At the time, 
Ernst & Young LLP did not offer paid leave for adoptive parents. We 
only had disability leave for birth mothers, something that was very 
common at the time. However, my managing partner and I arranged for me 
to take 6 weeks off.
    I came back on a reduced work schedule, something my managing 
partner and I created and what is now well known as a Flexible Work 
Arrangement (or ``FWA'').
    Fast forward 3 years, and my adopted daughter arrived in 1991. The 
firm still did not offer paid parental leave, and, again, I took time 
off. This time, I took 4 months. My managing partner said, ``I don't 
care what you do, I don't care where you work, just please don't leave 
the firm.''
    I did not leave. I continued on my FWA, typically, either not 
working on Wednesdays, or working more flexible hours during the week. 
My kids grew up in the Metropark, New Jersey office, and I was the role 
model for many women who came after me--those who believed they could 
have a career, a family, and a great life outside of work. But this was 
not a full-scale solution for the firm. It was ad hoc, geography-based, 
and really just a Band-Aid approach. Each person had to negotiate for 
what he or she needed. Some, like me, were lucky and got what we needed 
to be a great mom and a great professional. We were able to thrive. 
Others did not, and chose to leave the firm. In the mid-1990s, women 
within our U.S. firm were leaving at a rate 10 to 15 percent higher 
than men. This was creating a real ``brain drain,'' and motivated us to 
focus on an organization-wide model.
    I am proud to say that, today, we have nearly closed the retention-
gender gap, and our EY leadership drove this change.
    Our chairman at the time believed diverse and inclusive teams 
created better solutions for our clients. He was an early proponent of 
what is now our continued focus on diversity and inclusiveness, which 
includes flexible working. As a result of this tone at the top, EY 
began working to make sure everyone could thrive both personally and 
professionally in our culture.
    Because our early focus was on retaining women, we started our 
flexibility journey by formalizing FWAs. These were typically 
arrangements that included reduced schedules. This meant women like 
myself worked less than a full schedule when compared to their peers. 
Primarily, this met the needs of our women, who were making the 
transition to becoming a working mom and who wanted to spend more time 
with their child or children. We promoted our first female partner on a 
reduced schedule FWA in 1993. Using these types of FWAs over the years, 
we have promoted hundreds to partners, principals, executive directors 
and directors, the highest ranks in the firm.
    In 2001, the chairman of the new global EY organization continued 
the focus on women's leadership and wanted to build on our initial 
successes from the mid-1990s. He had experienced firsthand the success 
we built around FWAs in the New York metropolitan area. As a result, he 
asked me to become our director of Work Life Integration in the United 
States. My role was to help our people and the U.S. firm become more 
flexible. A component of this new role was to help engender a shift in 
our firm's culture, which required designing new programmatic solutions 
to help facilitate change.
    As you can imagine, advances in technology were essential to 
expanding our flexibility efforts, and with those technology solutions 
came a focus on offering flexibility for all. We no longer had to rely 
on reduced schedule FWAs primarily focused on women. Instead, 
technology was beginning to enable all of our people to work anytime 
from places other than the office. But our new parents still needed a 
more formal program to transition them from a singular focus on their 
career to a dual focus on both their career and family. In response, 
one of the single biggest policy changes we created was implementing a 
paid parental leave program, for women and men, in 2002.
    Ernst & Young LLP was the first of the Big 4 professional services 
firms to adopt a fully paid parental leave program. In 2002, we had no 
idea how it might work and if men would use the paid parental leave. 
But we knew we had to try because we were still losing women at a 
faster rate than men, and exit interviews told us that ``work-life 
balance'' was a big factor.
    So what do a bunch of accountants do? We asked our actuaries! The 
actuaries estimated that the firm could expect about 1,000 births each 
year among our U.S. professionals, nearly equally divided between men 
and women. Those estimates were correct. In the first year of the 
program, 950 people took the 2-weeks of paid parental leave we offered. 
Nearly everyone who was eligible for the leave took it, including the 
men!
    This proved to us that our efforts to change our culture through 
flexibility initiatives were working. If men and women were taking 
advantage of a program initially focused on women, then we had made 
progress. Several years later we decided to enhance our parental leave 
policy, again becoming the first Big 4 firm to do so, and increased 
time off for primary caregivers to 6 fully paid weeks off following the 
birth or adoption of a child.
    For birth mothers, this means 12 weeks of fully paid time off 
following the birth. This includes 6 weeks of disability plus 6 weeks 
of parental leave. If their doctor suggests it, birth mothers are also 
eligible for (typically) 2 weeks off before the birth. And for men and 
adoptive parents, because they are not deemed ``disabled'' due to a 
pregnancy, they get 6 weeks of fully paid parental leave, if they are 
the primary caregiver. Non-primary caregivers get 2 weeks of parental 
leave after the baby arrives.
    Ernst & Young LLP defines a primary caregiver as the person who has 
full-time caregiving responsibility for the child. That can be the 
father or the mother.
    Some of our dads who act as primary caregivers take 2 weeks off 
right after their child arrives and use the remaining 4 weeks of their 
6-week leave after their spouse or partner returns to work or school. 
Since we implemented paid parental leave in 2002, nearly all of our 
eligible Ernst & Young LLP men have utilized it. In a given calendar 
year at our firm, about 500 to 600 working dads in the United States 
take paid parental leave. We have found that men who take parental 
leave become real advocates for the women and great role models for the 
men on their teams because they know firsthand how challenging it is to 
be home with a baby.
    Nearly all of our women who utilize this benefit take their 12 
weeks off consecutively. Some also take additional vacation time and/or 
unpaid time off afforded by the Family and Medical Leave Act (FMLA) to 
expand their leave. Ernst & Young LLP provides access to 16 weeks of 
FMLA time, which is 4 more weeks than the 12 required by FMLA. We also 
run FMLA and disability-related time off consecutively, not 
concurrently. A new birth mother typically gets to use 6 weeks of 
disability leave before the FMLA time off even begins. Simply stated, 
birth mothers have 22 weeks of job guaranteed time off after the birth 
(6 weeks of paid disability plus 16 weeks of FML, with 6 of the latter 
being paid under our parental leave policy).
    Today the conversation is no longer about if men are going to take 
paternity leave; it's about how long they will take, and when. Too 
often, men are an afterthought in conversations about working parents 
and workplace flexibility. EY's experience and research have shown our 
organization's leaders that we not only have to shift our thinking and 
our benefit offerings, but we also need to shift our communications to 
be more inclusive of men.
    This is why, when EY piloted a new program called Career and Family 
Transitions in 2012, we offered executive coaching to help support new 
moms and dads who are welcoming a new baby through birth or adoption. 
To date, our coaches have worked with about 400 parents. A quarter of 
them have been dads.
    In our continuous effort to promote an environment that helps 
everyone succeed personally and professionally, EY recently sponsored 
new research on paternity leave. We wanted to better understand men's 
perspectives on paternity leave as their demands at home and at work 
continue to evolve.
    The study, conducted by the Boston College Center for Work & 
Family, was the subject of the White House Forum on Fathers held in 
early June 2014. The men who participated in the study were from a 
variety of industries and organizations. Participants expressed their 
belief that today 2 weeks of paid leave for men is the socially 
acceptable amount of time off. However, 74 percent of surveyed fathers 
suggested that 2 to 4 weeks was a more appropriate amount of paid 
paternity leave, highlighting that perhaps fathers would like more 
time, but may feel pressure to conform to societal norms.
    Among the findings that stood out to us was the fact that 
millennials (also known as Gen Y) are particularly interested in 
utilizing paid paternity leave benefits. Fathers from the millennial 
generation felt most strongly that it is important for employers to 
provide paid paternity or paid parental leave. In fact, 93 percent said 
it was extremely, very or somewhat important. This is really 
significant to us since more than 60 percent of EY's workforce is Gen 
Y.
    Anecdotally, there are many stories about how paternity leave 
positively impacts our working parents' levels of loyalty and 
satisfaction. Since we are an accounting firm, we prefer to measure and 
use more formal metrics that suggest flexibility offerings benefit our 
organization.
    For example, EY periodically conducts a Global People Survey (GPS) 
of its 190,000 people to measure their ``engagement,'' which the survey 
defines as their perceived satisfaction with the organization, pride, 
commitment, and willingness to share that EY is a great place to work. 
When people are engaged they take more ownership in the work they do, 
give extra effort when needed, and strive for higher levels of 
performance. When we foster an engaging experience through flexibility, 
teamwork, and empowerment, we retain more people--and retention 
contributes to better business results, including higher revenue 
growth.
    In 2013 we included questions regarding childcare responsibilities 
for our U.S. professionals for the first time. I'm proud to report that 
we found the U.S. firm's working parents express the highest levels of 
engagement among all of EY's professionals.
    It may seem counterintuitive for an organization to encourage its 
people to take more time away from work and to spend business resources 
on family programming. Yet for EY, encouraging our men and women to 
take paid parental leave, utilize day-to-day flexibility, or go on an 
FWA to help manage their busy lives, has been smart business.
    This is confirmed by an external study that EY conducted of men and 
women, from various generations and organizations. It found that nearly 
one in five (18 percent) employees ranked flexibility first overall in 
non-cash, non-benefits perks. It was a learning experience for me 
personally to see that Gen X men (40 percent) were the most likely to 
leave a job if flexibility was not offered compared to Gen X women (37 
percent), and Gen Y men (36 percent) were more likely to leave compared 
to Gen Y women (30 percent).
    EY must focus on our future, and that means focusing on meeting the 
workplace expectations of our Gen Y professionals. This includes their 
career goals, how they work, the technology they use, and how they will 
manage their busy lives now and in the future. For EY, offering 
flexibility is not just the right thing to do, it is also cost 
effective. It costs us 1.5 to 2 times a mid-level employee's salary to 
hire and train his or her replacement, and that turnover can be 
disruptive.
    Changing a corporate culture cannot come from a one-off initiative, 
and it does not change an organization overnight. At EY, we started 
with the tone at the top. Successive chairmen recognized that 
flexibility was important, and they ``modeled'' the behavior they 
wanted to see our partners and employees embrace. Continuing that 
legacy, our current global chairman and CEO just spoke at the White 
House Summit on Working Families on the topic of flexibility.
    Change cannot just come from the top down. There must be grassroots 
support and buy-in across the organization. We have learned that the 
best way to do this is to be transparent and communicate not only what 
we are doing, but why.
    Flexibility, parental leave, and the other programs I've mentioned 
are not silver bullets, and they may not be appropriate for every 
organization. But for EY, these initiatives lead to better experiences 
for our people. As a result, our people deliver the exceptional service 
our clients expect, and this creates better business results for EY. 
For us, it is about our people. We know our people have choices. By 
creating a culture that supports them and helps them succeed, both 
personally and professionally, EY gains a competitive advantage in the 
marketplace. This is what allows us to attract and retain the top 
talent we need to serve our clients in the high-quality way they 
expect.

    Senator Hagan. Thank you.
    Our next witness is Jeannine Sato, a working mom from 
Durham, NC, who is going to tell us about her experiences 
having children both with and without paid leave.
    Ms. Sato.

 STATEMENT OF JEANNINE SATO, MALS, DIRECTOR, DURHAM CONNECTS, 
                           DURHAM, NC

    Ms. Sato. Good morning. I'd like to thank Madam Chair Hagan 
for holding this important hearing on the benefits of paid 
family leave today. My name is Jeannine Sato. I'm the Director 
of Durham Connects, a nurse home visiting program for parents 
of newborns established by Duke University and community 
partners. I'm a Duke employee, but I'm not representing the 
views of Duke University today.
    I am a married mom with two children. My son, Kenji, is 
four, and my daughter, Hana, is seven. My family lives in 
Durham, where I co-founded the North Carolina chapter of Moms 
Rising.org. I'm grateful to be here with you today and to share 
my experience with paid family leave.
    I have two very different stories. When I was pregnant with 
my daughter 7 years ago, I thought I was in good shape with 
maternity leave. I worked for a reputable organization that 
claimed to be family friendly. Once I learned I was pregnant, I 
drafted a maternity leave proposal to cover my responsibilities 
for my 12 weeks of leave, which I thought was covered under the 
Family Medical Leave Act, otherwise known as the FMLA, and I 
didn't anticipate any problems.
    When I was 3 months pregnant, I presented my plan to my 
boss, but his answer was a resounding no. I was treated with 
quite a lot of contempt. It turns out the federally funded 
nonprofit that I worked for was not required to offer FMLA 
because of a little known exemption. My employer had well over 
100 employees, much more than the 50 required by FMLA, and I'd 
been employed for more than 3 years, well over the 1-year 
minimum. I learned, though, that for FMLA to apply, a business 
must have 50 employees within a 75-mile radius, and our offices 
were separated by about 80 miles each.
    So it was a decision I realized later that they had made to 
circumvent FMLA. Still, my employer could have made an 
exception. The employee manual had a process for requesting 
unpaid personal leave for family reasons. But I was deemed too 
essential to take off 12 weeks, and they didn't want to set a 
precedent.
    In addition to refusing my leave, my employer denied me a 
flexible work environment after the birth, which meant no 
working from home and no compressed work week. So I had to 
return to work full time after 6 weeks of medical leave or risk 
losing my job. I'm a breadwinner in my family, and I needed my 
job.
    This was an incredibly difficult time physically and 
emotionally for me, my marriage, and my family. Despite going 
back to work so quickly, I still ended up taking several weeks 
without pay, as did my husband. It was a struggle financially 
for us with the new cost of a baby, and I can't even really 
imagine what this would mean to a low-wage employee or single 
parent. So many people don't even have sick or paid vacation 
days, as you noted, Senator Hagan.
    In the end, after the birth of my first child, I had no 
paid family leave, no family leave which was unpaid, and no job 
protection. So I immediately started looking for another job 
and an employer who would honor the idea of family friendly 
policies, not only because it was the ethical thing to do, but 
because it was good business. I knew that happy, supported 
workers were loyal, productive workers.
    Within a year, I found a new job at Duke University, and my 
former boss was quite shocked when I left. Retention was a 
major goal of theirs, and I told them that even the big raise 
that they had given me couldn't keep me there because they 
didn't honor me or value me as a person.
    So fast forward. My second child, Kenji, was born 4 years 
ago while I was working at Duke's Center for Child and Family 
Policy, and my experience could not have been more different. 
My boss congratulated me upon my pregnancy. He allowed me 12 
weeks leave and flexibility to work from home to ease my 
transition back to work.
    Per its HR policy, Duke University provided 3 weeks of paid 
leave, and I didn't risk losing my job. My anxiety was much 
lower, and I was a better parent and worker. I was recovered, 
rested, and ready to go back to work, and I didn't miss a beat. 
I am forever grateful for this support.
    In addition, through my work, I've witnessed firsthand how 
little support many parents receive from their employers. As I 
mentioned earlier, I direct a universal program for parents of 
newborns. Some of the parents we serve are forced to go back in 
as little as 1 week after birth, because they simply can't 
afford to stay home without pay or risk losing their job.
    This is really sad to watch, and it also poses potential 
harm to both child and maternal health and well-being. We must 
ensure that all moms and dads, all workers, no matter who they 
work for, have access to paid family leave, not only for new 
parents, but for families taking care of critically ill 
children or other relatives or those recovering from their own 
illness.
    This is a human issue. Navigating the stressful patchwork 
of maternity leave changed my life, and now I hope to improve 
it for others. In the end, my former employer failed to 
recognize that taking care of its staff, not fear or money, 
necessarily, garners loyalty and productivity from employees. 
Just ask my current employer.
    [The prepared statement of Ms. Sato follows:]

               Prepared Statement of Jeannine Sato, MALS

    Good morning. I would like to thank Chairman Hagan and Ranking 
Member Enzi for holding this important hearing on the benefits of paid 
family leave for businesses and working families. My name is Jeannine 
Sato. I am the director of Durham Connects, the nurse home visiting 
program for parents of newborns established by Duke University and our 
community partners. I'm also a married mom of two children: My son, 
Kenji, is age 4 and my daughter, Hana, is age 7. I'm grateful to have 
the chance to be with you today and share my family's experience with 
paid family leave.
    When I was pregnant with my daughter just over 7 years ago, I 
thought I was in good shape in terms of maternity leave. I worked for a 
reputable organization that was supposed to be ``family friendly.'' 
Once I learned I was pregnant, I drafted a multi-page document about 
how I was going to cover my job responsibilities during my 12 weeks of 
maternity leave, which I assumed was covered under the Family and 
Medical Leave Act, otherwise known as FMLA. I didn't anticipate any 
problems.
    I was optimistic that my maternity leave plan would be logical and 
safe. When I went to present my plan to my boss, I was only 3 months 
pregnant. (I like to plan ahead.) Despite submitting a well-thought-out 
maternity plan meticulously developed to cover my absence, my boss' 
answer was a resounding ``no.'' I was treated with contempt.
    It turns out the federally funded nonprofit I worked for did not 
have to offer FMLA, because of a little-known exemption that really 
took me by surprise.
    My employer had well over 100 employees, more than the FMLA 
requirement of 50 employees, and I had been employed for nearly 3 
years, well over the 1-year requirement. I learned, though, that for 
FMLA to apply, a business must have more than 50 employees within a 75-
mile radius. Our three offices were separated by 80 miles each. At an 
earlier meeting, management decided to juggle hiring and placement in 
order to avoid the FMLA. I was at that meeting, but didn't realize the 
full implications of what they were doing in terms of its impact on 
employees.
    This decision meant that there were literally 5 miles between me 
and the opportunity to have uninterrupted bonding with my newborn baby. 
My employer certainly could have made an exception for the situation, 
as it was listed as an option right in the ``Personal Leave'' section 
of the employee manual, citing the organization's ``Family Comes 
First'' philosophy.
    However, I was deemed as ``too essential'' to take off 12 weeks, 
and they didn't want to ``set a precedent'' that other employees would 
follow. In addition to refusing my leave, my employer denied me a 
flexible work environment after the birth. That meant no working from 
home, and no compressed workweek. I had to return to work full-time 
after only 6 weeks of medical leave, after using all my vacation and 
sick time, or risk losing my job. I am the breadwinner in my family, 
and I needed my job.
    After 6 weeks of round the clock baby care, I reluctantly dragged 
my exhausted, sore, depressed body back to work to sit in an office 
writing documents and checking e-mails, while my newborn baby was at 
home. This was an incredibly difficult time physically and emotionally 
for me, my marriage and my family. As an anxious new mother I was 
depressed and exhausted, all of which risked my health and that of my 
baby.
    Going back to work so quickly cuts bonding time with children and 
can make meeting breast feeding goals very difficult. Ironically, my 
husband's company, which was clearly exempt from FMLA because it had 
fewer than 20 employees, still cheerfully offered him 4 weeks of unpaid 
leave to care for our child while I went back to work. He brought our 
daughter in every day so I could breastfeed her over lunch. Even with 
the ability to pump breast milk every 2 hours, it was extremely 
difficult to maintain supply. I kept it up for 7 months, about which I 
am very proud. But many reasonable people would have quit sooner. It 
was so hard.
    Despite going back to work so quickly and all of the sacrifices 
that it involved, I still ended up going several weeks without pay, as 
did my husband. It was a tremendous financial struggle for us to reduce 
our income at a time when we faced the many expenses that come with a 
newborn child. We had birth center co-pays, supplies, hundreds of 
diapers, a mortgage and bills. However, we felt fortunate that at least 
one of us could be home with our daughter for those crucial first weeks 
of her life.
    It dawned on me during this time that many women don't have the 
``luxury'' of any maternity leave, paid or unpaid. Most States do not 
have short-term disability, and many Americans have no guaranteed sick 
time, vacation or maternity leave. Some mothers go back to work only 1 
week after having a child because they can't afford to miss a paycheck. 
It makes me so sad that Americans would allow their fellow workers--our 
mothers--to be treated that way.
    My negative experience prompted me to leave my previous employer 
and find another one that would truly honor the idea of ``family 
friendly'' policies, not only because that is the ethical thing to do, 
but also because it is good business. Happy, supported workers are 
loyal, productive workers for their employers. Yet many businesses fail 
to realize that.
    Within a year I found a new job at Duke University and resigned my 
former position. My former boss was shocked when I left. Despite 
multiple management meetings discussing employee retention strategies, 
where I told them flexibility was key to staff, they instead gave 
raises. I told them that I, and probably many other employees, would 
give the money back if we could have had more work flexibility. Yet 
management failed to see that loyalty and flexibility are worth their 
weight in gold.
    My second child, Kenji was born 4 years ago, after I had begun my 
new position at Duke University's Center for Child & Family Policy. My 
experience here could not have been more different than at my previous 
employer. My boss congratulated me upon my pregnancy and told me to let 
him know what I needed. He allowed me 12 weeks leave and the 
flexibility to work from home to ease my transition. Per its HR policy, 
Duke University provided 3 weeks of pay after my use of accrued 
vacation and sick time. Because my leave was longer, I still took 
unpaid time and we had to manage our finances carefully, but I didn't 
risk losing my job. I was recovered, rested and ready to come back to 
work, and I never missed a beat. My anxiety was much lower and I was a 
better parent. breast feeding was still hard, but I was better able to 
manage it at home those first weeks. I will be forever grateful for 
this support.
    The stark difference between the family leave situations between my 
first and second child crystalized for me how terrible my first 
experience was, and how much better things can be in a supportive work 
environment. Being able to take the appropriate amount of time off 
allowed us to bond with our newborn, and establish good breast feeding 
routines and quality child care plans. It gave me time to rest and 
recuperate from pregnancy and childbirth before jumping back into the 
workforce.
    In addition to my personal experience, through my work I have 
witnessed first-hand how little support many parents receive from their 
employers. As I mentioned earlier, I direct a nonprofit nurse home 
visiting program for parents of newborns. Some of the parents we serve 
are forced to go back to work as early as 1 week after their child is 
born because they simply can't afford to stay home without pay or risk 
losing their job. I cannot impress upon you enough the cascading harm 
this potentially can cause to the mother's health, the babies' health 
and the overall well-being of the family and community.
    We must ensure that all moms and dads, all workers no matter who 
they work for, have access to paid family leave, not only for new 
parents, but also for families taking care of critically ill children, 
or other relatives, or recovering from their own serious illnesses. 
This is a human issue.
    I urge our policymakers to realize that investments in family leave 
and early childhood are returned to us tenfold by a more stable, 
successful and prosperous society. Navigating the stressful patchwork 
system of maternity leave has changed my life and now I hope to improve 
this foundation of society as part of my life's work.
    In the end, my former employer failed to recognize that taking care 
of its staff, not fear or money, garners loyalty among employees. All 
working families should have access to paid family leave. And if 
businesses want to boost productivity, they should realize that 
investing in employees' work-family balance is the key to success. Just 
ask my current employer.

    Senator Hagan. Thank you.
    Our next witness is Victoria Shabo, vice president of the 
National Partnership for Women and Families, who is also an 
expert in the research on paid family leave.
    Ms. Shabo.

   STATEMENT OF VICTORIA S. SHABO, M.A., JD, VICE PRESIDENT, 
  NATIONAL PARTNERSHIP FOR WOMEN AND FAMILIES, WASHINGTON, DC

    Ms. Shabo. Thank you, Chairman Hagan and members of the 
committee. It's great to be here with you today and with such 
distinguished fellow panelists who are so articulate as well. I 
am Vicki Shabo, vice president of the National Partnership for 
Women and Families, an organization that has fought for more 
than 40 years for every major policy advance that has helped 
women and families.
    Working families' need for paid family and medical leave is 
nearly ubiquitous, as we've heard here. But for too long, 
people have struggled privately with their work-family 
challenges. The moment to change that is now. In fact, new 
demographic and economic truths, some of which you referred to 
in your remarks, Chairman Hagan, reveal an urgent need for 
change.
    Today, women make up nearly half the workforce and are 
primary or sole breadwinners in 40 percent of families. 
Seventy-one percent of children live in households where all 
parents hold jobs. The number of seniors and the need for elder 
care are growing, and men are increasingly taking on family 
caregiving, so this isn't just a women's issue. But most of the 
work continues to be done by women.
    Against this landscape, the National Partnership recently 
studied workers' access to family and medical leave, and we 
discovered that the United States is failing its families. 
Although the Family and Medical Leave Act has been used more 
than 100 million times by people to care for their new 
children, their seriously ill loved ones, or their own serious 
health condition, 40 percent of the workforce, or 60 million 
workers, are left out. And the FMLA guarantees only unpaid 
leave, which millions of workers cannot afford to take.
    Recognizing these gaps, we then looked at private sector 
policies and State laws to see whether they do better at 
providing paid time off. Our resulting report, Expecting 
Better, answers that question, similar to Jeannine's boss, with 
a resounding no. We found that whether a mom or dad, son or 
daughter, husband or wife has access to paid leave is a 
function of where they work and where they live, and, 
unfortunately, most people are left out. In sum, chance and 
inequality reigns.
    Just 12 percent of workers, as you mentioned, have access 
to paid family leave. Only 40 percent have access to short-term 
disability insurance to address serious medical conditions. 
Only about half of new mothers take any paid leave at all after 
the birth of a child, and that figure hasn't improved in more 
than a decade. Low-wage workers are hit the hardest, and that 
trend will also be worse as the jobs that are being created are 
disproportionately low-wage and low-benefit, and they tend to 
be held by women.
    Fortunately, some States are doing better for working 
families. California, New Jersey, and Rhode Island have all 
created paid family leave programs. They are working well, and 
they're paving the way for more State innovation. But there's 
much more to do and much more we need to do at the national 
level. There's a growing body of evidence that it will 
strengthen our families, our businesses, and our economy if we 
do it now.
    First, as you mentioned, workers' access to paid family 
leave improves families' economic security. Moms are more 
likely to go back to work, to earn higher wages over time, and 
to return to their same employer if they have paid family 
leave. These figures are particularly important in context. 
Having a baby is the most expensive health event families 
experience in their childbearing years, and it's estimated that 
13 percent of new families with a new infant become poor within 
a month.
    Family caregivers and workers with serious health 
conditions are also more likely to stay in the workforce if 
they have accommodations like paid leave. That leads to greater 
financial security for people as they age. Businesses benefit 
when workers stay in their jobs. Retention is important for 
many reasons, but among them is the high cost of turnover, 
which is typically 21 percent of a worker's annual wages and as 
high as 213 percent for workers in high-wage occupations.
    Businesses experience other benefits, too. Ninety percent 
or more of California employers that were surveyed about the 
State's paid leave program reported positive effects on 
profitability, performance, and morale, or no effect, meaning 
that the negative some employers feared never materialized. 
Health and well-being improved in terms of documented benefits 
for newborn and maternal health.
    Finally, paid leave is a wise public investment. More 
people at work earning higher wages mean that more people are 
paying taxes and contributing to keep public programs like 
social security. In addition, paid leave reduces the cost of 
food stamps and public assistance, because families with paid 
leave, even controlling for other factors, are less likely to 
take public assistance or food stamps in the year after a 
child's birth.
    So the big question now is how we get from an America where 
12 percent of families have paid family leave to one where all 
do, and the answer, I think, lies in three parts. One, we must 
celebrate the positive experiences of employers, like Keven 
Trapani, who will be speaking in a moment, Ernst and Young, and 
others, and we must hear from more families about their 
experiences.
    Second, we must encourage more State progress. Third, and 
ultimately, we must ensure all Americans have access to paid 
leave, building on the positive experiences of employers and 
States to move from today's patchwork of policies to a workable 
national solution. When we do that, our Nation will benefit 
with stronger families and a stronger economy and will be 
better able to compete in the 21st century and beyond.
    I hope this hearing and other conversations spark intensive 
efforts to craft paid leave solutions so people who need to 
take paid leave can gaze into the eyes of their new child and 
form a lifelong bond, hold the hand of a dying parent, or seek 
treatment for their own health issue. We can't afford to wait.
    Thank you, and I look forward to answering your questions.
    [The prepared statement of Ms. Shabo follows:]

           Prepared Statement of Victoria S. Shabo, M.A., JD

    Good morning, Chairman Hagan, Ranking Member Enzi and members of 
the committee. It is an honor to be here with you today to discuss the 
benefits of paid family and medical leave for workers and families, 
businesses and the economy.
    My name is Vicki Shabo, and I am vice president at the National 
Partnership for Women & Families, where I lead the organization's 
workplace issues portfolio. The National Partnership is a nonprofit, 
nonpartisan advocacy organization based in Washington, DC. For more 
than four decades, we have fought for every major policy advance that 
has helped women and families. We promote fairness in the workplace, 
reproductive health and rights, access to quality, affordable health 
care, and policies that help women and men meet the dual demands of 
work and family. Our goal is to create a society that is free, fair and 
just, where nobody has to experience discrimination, all workplaces are 
family friendly, and every family has access to quality, affordable 
health care and real economic security.
  introduction: a moment to create a strong economy that works for all
    This hearing comes at an exciting time. Last month at an historic 
White House Summit on Working Families, advocates, researchers, 
business leaders and elected officials came together to address the 
transformation of America's economy and its workforce. Executives from 
premier Fortune 500 companies and medium and small employers alike made 
strong business cases for family friendly policies, demystified the act 
of offering such policies, and shared the tangible returns they have 
seen for their brands, their revenues and their people. Workers from 
across the country spoke about the difference these policies make in 
helping them position their children for success, care for ailing or 
injured elderly parents, attend to their own serious health issues, and 
meet other life responsibilities.
    There is a growing understanding that the need for paid family and 
medical leave is nearly ubiquitous, but for too long we have left 
individuals and families to search for solutions on their own, rather 
than adopting solutions that work for the Nation. The moment to change 
that is now. The urgent needs of families, the strong public demand, 
compelling employer testimonials, positive data from States and cities 
that have adopted family friendly policies, and clear interest from 
those in the private and public sectors all signal that it's time for 
progress. At this moment, lawmakers, employers and all of us must do 
all we can to transform America into a nation that truly reflects its 
family values rather than what it has been--a nation that pays lip 
service to family values but takes little action.
    In my remarks this morning, I will touch briefly on the new 
economic and demographic truths about work, wages and family that make 
this conversation about paid family and medical leave so important. 
I'll summarize the patchwork of laws and policies that leave too many 
people without the paid leave they need and deserve. I'll touch on 
economic, business and health evidence that makes paid leave so 
essential to our Nation's progress. And I'll share thoughts on a 
roadmap for the way forward, toward an America where all workers can 
care for themselves and their loved ones without sacrificing their 
financial stability.
i. new demographic and economic truths reveal an urgent need for change
    The world of work, wages and family has changed dramatically, but 
our workplace policies and norms remain largely stagnant, addressing 
few of the challenges Americans face day to day as they struggle to 
manage the dual demands of work and family. Today, women make up nearly 
half the workforce and are the primary or sole breadwinners in 40 
percent of families \1\; in just under another quarter of families, 
women's earnings contribute substantially to their families' 
incomes.\2\ Most first children are born into households with mothers 
who were employed before and who return to work after giving birth,\3\ 
and most children live in households with a single parent or both 
parents who hold jobs as they grow.\4\
---------------------------------------------------------------------------
    \1\ The Council of Economic Advisers. (2014, June). Nine Facts 
About American Families and Work. Executive Office of the President of 
the United States Publication. Retrieved 24 July 2014, from http://
www.whitehouse.gov/sites/default/files/docs/nine_facts_about_family_
and_work_real_final.pdf.
    \2\ Glynn, S.J. (2014). Breadwinning Mothers, Then and Now. Center 
for American Progress Publication. Retrieved 24 July 2014, from http://
cdn.americanprogress.org/wp-content/uploads/2014/06/Glynn-Breadwinners-
report-FINAL.pdf.
    \3\ Laughlin, L. (2011, October). Maternity Leave and Employment 
Patterns of First-Time Mothers: 1961-2008. U.S. Census Bureau 
Publication. Retrieved 24 July 2014, from http://www.census.gov/prod/
2011pubs/p70-128.pdf.
    \4\ U.S. Census Bureau. (2013). American Community Survey 1-Year 
Estimates 2012, Table DP03: Selected Economic Characteristics. 
Retrieved 24 July 2014, from http://factfinder2.census.gov/faces/
tableservices/jsf/pages/productview.xhtml?pid=ACS_12_1YR_
DP03&prodType=table (Unpublished calculations).
---------------------------------------------------------------------------
    Despite dramatic increases in women's workforce participation and 
contributions as family breadwinners, women most often continue to be 
the primary caregivers for children at birth and during childhood--and 
for elderly parents.\5\ It is true and very welcome that men are 
increasingly interested in, and taking on, more family caregiving, but 
most of the work continues to be done by women.\6\
---------------------------------------------------------------------------
    \5\ Eisler, R., & Otis, K. (2014). Unpaid and Undervalued Care Work 
Keeps Women on the Brink. In O. Morgan, & K. Skelton (Eds.), The 
Shriver Report: A Woman's Nation Pushes Back from the Brink. New York, 
NY: Palgrave Macmillan Trade; Bianchi, S.M. (2011). Changing families, 
changing workplaces. The Future of Children, 21(2), 15-36; National 
Alliance for Caregiving. (2009, November). Caregiving in the U.S. 
National Alliance for Caregiving and AARP Publication. Retrieved 24 
July 2014, from http://www.caregiving.org/data/
Caregiving_in_the_US_2009_full_report.pdf.
    \6\ The Council of Economic Advisers. (2014, June). The Economics 
of Fatherhood and Work. Executive Office of the President of the United 
States Publication. Retrieved 24 July 2014, from http://
www.whitehouse.gov/sites/default/files/docs/
working_fathers_presentation.pdf; See also note 1.
---------------------------------------------------------------------------
    Economic pressures and precarious work conditions exacerbate the 
stresses that working families face. Stagnating wages and a persistent 
gender-based wage gap mean women--and all workers--are working later in 
life, for less, and are less able to save for the future.\7\
---------------------------------------------------------------------------
    \7\ Mishel, L., & Shierholz, H. (2013). A decade of flat wages: the 
key barrier to shared prosperity and a rising middle class. Economic 
Policy Institute Publication. Retrieved 27 July 2014, from http://
www.epi.org/publication/a-decade-of-flat-wages-the-key-barrier-to-
shared-prosperity-and-a-rising-middle-class/; National Partnership for 
Women and Families. (2014, April). America's Women and the Wage Gap 
Fact Sheet. National Partnership for Women & Families Publication. 
Retrieved 27 July 2014, from http://www.nationalpartnership.org/
research-library/workplace-fairness/fair-pay/americas-women-and-the-
wage-gap.pdf; Helman, R., Adams, N., & VanDerhei, J. (2014). The 2014 
Retirement Confidence Survey: Confidence Rebounds--for Those With 
Retirement Plans. EBRI Issue Brief, (397); Saving: Too Thin a Cushion. 
(2013, April 3). The Economist. Retrieved 27 July 2014, from http://
www.economist.com/blogs/freeexchange/2013/04/saving.
---------------------------------------------------------------------------
    Keeping a job--whatever the conditions, wages or access to basic 
standards like paid sick days, paid leave, retirement security or 
health benefits--is of paramount importance because wages from work 
mean the difference between staying afloat or falling down a financial 
rabbit hole and hitting rock bottom.
    In addition, demographic trends underscore the urgent need to 
create family friendly policies. Women's workforce participation, which 
climbed substantially in the United States in the 1970s and 1980s, has 
stagnated relative to other developed countries.\8\ We would add about 
5 percent to our GDP if women participated in the workforce to the same 
extent as men,\9\ and it stifles our economic standing when women can't 
make work work. Part of the reason many women can't is that the United 
States lacks basic family friendly workplace and child care 
policies.\10\
---------------------------------------------------------------------------
    \8\ See note 1.
    \9\ Aguirre, D., Hoteit, L., Rupp, C., & Sabbagh, K. (2012). 
Empowering the Third Billion. Women and the World of Work in 2012. Booz 
& Company Publication. Retrieved 25 July 2014, from http://
www.strategyand.pwc.com/media/file/Strategyand_Empowering-the-Third-
Billion
_Full-Report.pdf.
    \10\ Ibid.; See also The Council of Economic Advisers. (2014, 
June). Nine Facts About American Families and Work. Executive Office of 
the President of the United States Publication. Retrieved 24 July 2014, 
from http://www.whitehouse.gov/sites/default/files/docs/
nine_facts_about_
family_and_work_real_final.pdf.
---------------------------------------------------------------------------
    Our birthrates are also falling relative to other developed 
nations, which has significant implications for our Nation and our 
workforce now and in the future.\11\ Concerns about making ends meet, 
coupled with our Nation's lack of family friendly policies and 
inflexible business cultures, play a role in this decline. Young 
people, in particular, see work demands as incompatible with parenting 
and say they may put off or avoid the latter altogether.\12\
---------------------------------------------------------------------------
    \11\ Douthat, R. (2012, December 1). More Babies, Please. The New 
York Times. Retrieved 25 July 2014, from http://www.nytimes.com/2012/
12/02/opinion/sunday/douthat-the-birthrate-and-americas-
future.html?_r=1& (Citing Livingston, G. (2012). In a Down Economy, 
Fewer Births. Pew Research Center Publication. Retrieved 26 July 2014, 
from http://www.
pewsocialtrends.org/2011/10/12/in-a-down-economy-fewer-births/).
    \12\ Ibid.; Friedman, S.D. (2013, October). Baby Bust: New Choices 
for Men and Women in Work and Family. Pennsylvania, PA: Wharton Digital 
Press.
---------------------------------------------------------------------------
    At the same time, our population is aging: Over the next 25 years, 
the number of adults 65 and older is expected to double.\13\ By 2060, 
there will be 92 million older adults--accounting for more than 20 
percent of the U.S. population.\14\ This means many more workers will 
need time away from work to care for seriously ill parents and 
spouses.\15\ Our Nation needs to address the impending elder care 
crisis now.
---------------------------------------------------------------------------
    \13\ Centers for Disease Control and Prevention. (2013). The State 
of Aging and Health in America 2013. Retrieved 26 July 2014, from 
http://www.cdc.gov/features/agingandhealth/state_of
_aging_and_health_in_america_2013.pdf.
    \14\ U.S. Census Bureau. (2014, March 25). Older Americans Month: 
May 2014. Retrieved 26 July 2014, from http://www.census.gov/newsroom/
releases/archives/facts_for_features_
special_editions/cb14-ff07.html.
    \15\ MetLife Mature Market Institute. (2011, June). The MetLife 
Study of Caregiving Costs to Working Caregivers: Double Jeopardy for 
Baby Boomers Caring for Their Parents. Retrieved 24 July 2014, from 
https://www.metlife.com/assets/cao/mmi/publications/studies/2011/mmi-
caregiving-costs-working-caregivers.pdf.
---------------------------------------------------------------------------
    All these factors make it absolutely critical that our country 
update its workplace policies and standards. In particular, we must 
ensure all workers in the United States have paid family and medical 
leave so that people can take the time they need to welcome a new child 
or address serious medical challenges without jeopardizing their 
family's economic security. We simply must end the days when millions 
of workers across the Nation face devastating economic hardships as a 
result of significant family and medical events. There is no time to 
wait.
 ii. the patchwork of family and medical leave policies fails too many 
                                families
    The National Partnership recently studied the landscape with regard 
to workers' access to family and medical leave, whether offered through 
employer policies or through public policies. Sadly, we discovered 
that, for the most part, the United States is failing its families.
A. Family and Medical Leave Act
    First, although the Family and Medical Leave Act (FMLA) has been 
the law for 21 years and has been used more than 100 million times to 
help assure eligible workers the time they need to care for a new 
child, a seriously ill loved one or their own serious health condition, 
too many people are left out. In all, slightly less than 60 percent of 
the workforce (about 90 million workers) has access to unpaid leave 
under the FMLA.\16\ But that means that four in 10 workers--or about 60 
million--are left out by the law's exclusions of employees in smaller 
businesses, employees with less than a year on the job and employees 
who work part-time.\17\ These workers have absolutely no right to take 
time away from their jobs to address serious family or medical issues, 
and if they do, they risk losing their jobs and their health benefits.
---------------------------------------------------------------------------
    \16\ Klerman, J., Daley, K., & Pozniak, A. (2012, September 7). 
Family and Medical Leave in 2012: Technical Report. Abt Associates 
Publication. Retrieved 23 April 2014, from http://www.dol.gov/asp/
evaluation/fmla/FMLA-2012-Technical-Report.pdf.
    \17\ National Partnership for Women & Families calculation based on 
FMLA access rate as reported in Klerman et al. multiplied by the number 
of employed civilian population reported in U.S. Bureau of Labor 
Statistics. (2014, July 3). Table A-1, Employment status of the 
civilian population by age and sex. Retrieved 26 July 2014, from http:/
/www.bls.gov/news.release/empsit.t01.htm. Looking at just the private 
sector, about 50 million workers are not protected by the FMLA. Private 
sector calculations based on same calculation using Table A-8. Employed 
persons by class of worker and part-time status. Retrieved 26 July 
2014, from http://www.bls.gov/news.release/empsit.t08.htm; See also 
Jorgensen, H., & Appelbaum, E. (2014, February 5). Expanding Federal 
Family and Medical Leave Coverage: Who Benefits from Changes in 
Eligibility Requirements? Center for Economic and Policy Research 
Publication. Retrieved 24 July 2014, from http://www.cepr.net/
documents/fmla-eligibility-2014-01.pdf.
---------------------------------------------------------------------------
    Second, the FMLA guarantees only unpaid leave, which means millions 
of workers who need leave cannot afford to take it. In fact, the share 
of workers who said they needed and did not take leave doubled from 
2000 to 2012. The most common reason provided by workers who needed 
FMLA leave but did not take it was that they couldn't take time off 
without some income. Other workers took shorter leaves, dipped into 
savings earmarked for other needs, went into debt, or had to accept 
public assistance as a result of taking unpaid leave.\18\
---------------------------------------------------------------------------
    \18\ See note 16.
---------------------------------------------------------------------------
    Recognizing the gaps, we looked beyond the FMLA to study whether 
the private sector or State laws better address workers' need for paid 
time off. A report we issued earlier this summer, Expecting Better: A 
State-by-State Analysis of Laws That Help New Parents, answered that 
question with a resounding ``no''--the same conclusion we reached in 
2005 and 2012 when we conducted similar analyses.\19\
---------------------------------------------------------------------------
    \19\ National Partnership for Women & Families. (2014, June). 
Expecting Better: A State by State Analysis of Laws That Help New 
Parents. Retrieved 24 July 2014, from http://
www.nationalpartnership.org/research-library/work-family/expecting-
better-2014.pdf.
---------------------------------------------------------------------------
B. Employer Policies
    Expecting Better reveals a nation in which chance and inequality 
reign. Whether a mom or dad--or a son, daughter, husband or wife--has 
access to paid leave is purely a function of who they work for and 
where they live. And, unfortunately, most people are left out.
    Overall, just 12 percent of private sector workers nationwide have 
access to employer-provided paid family leave that they can use to bond 
with a new baby or care for a seriously ill family member.\20\ Only 40 
percent have access to employer-provided short-term disability 
insurance to address a personal serious medical need that requires time 
away from work.\21\ And only about 61 percent have access to paid sick 
days, for when short-term illnesses strike.\22\
---------------------------------------------------------------------------
    \20\ U.S. Bureau of Labor Statistics. (2013, September). National 
Compensation Survey: Employee Benefits in the United States, March 2013 
(Table 32). Retrieved 24 July 2014, from http://www.bls.gov/ncs/ebs/
benefits/2013/ebbl0052.pdf.
    \21\ U.S. Bureau of Labor Statistics. (2013, September). National 
Compensation Survey: Employee Benefits in the United States, March 2013 
(Table 16). Retrieved 24 July 2014, from http://www.bls.gov/ncs/ebs/
benefits/2013/ebbl0052.pdf.
    \22\ See note 20
---------------------------------------------------------------------------
    Lower-wage workers are hit the hardest and face particular 
challenges when serious family and medical needs arise. Most workers in 
the bottom wage quartile (those who are paid $11.00 per hour or less) 
lack access to paid time away from work. Just 5 percent have paid 
family leave, 18 percent have access to short-term disability insurance 
through their employers, 30 percent have paid sick time and 49 percent 
have paid vacation time (and any new parent or family caregiver or 
person suffering from a serious illness knows that none of these major 
life events are vacations).\23\ That means fully half of lower wage 
workers are without any source of pay when they need time away from 
their jobs.\24\ This problem will only grow worse if there are no 
interventions because the jobs that employers are creating are 
disproportionately low-wage and low-benefit. It is noteworthy that the 
vast majority of these jobs tend to be held by women.\25\
---------------------------------------------------------------------------
    \23\ See notes 20 and 21.
    \24\ See table 1 in text below.
    \25\ Boushey, H. (2014). A Woman's Place Is in the Middle Class. In 
O. Morgan and K. Skelton (Eds.), The Shriver Report: A Woman's Nation 
Pushes Back from the Brink. New York, NY: Palgrave Macmillan Trade; 
Shabo, V. (2014, January 17). Employer Trends Signal Need for National 
Workplace Standards. National Partnership ``From the Desk of . . .'' 
Blog. Retrieved 26 July 2014, from http://www.nationalpartnership.org/
blog/general/employer-trends-signal-need-for-national-workplace-
standards.html.
---------------------------------------------------------------------------
    For the highest wage earners, the story is different, but even for 
them, access to paid family leave and short-term disability insurance 
is lacking. In addition, workplace cultures too often discourage 
people--especially men--from taking time away from their jobs to 
address family needs.\26\
---------------------------------------------------------------------------
    \26\ Harrington B. et al. (2014). The New Dad: Take Your Leave. 
Perspectives on paternity leave from father, leading organizations, and 
global policies. Boston College Center for Work and Family Publication. 
Retrieved 24 July 2014, from http://www.bc.edu/content/dam/files/
centers/cwf/news/pdf/BCCWF%20The%20New%20Dad%202014%20FINAL.pdf.

 Table 1--Percentage of Private Sector Workers with Access to Paid Time
                                   Off
------------------------------------------------------------------------
                                                 Workers in   Workers in
                                                 the lowest  the highest
                                                    wage         wage
                                                  quartile     quartile
                                   All workers     (paid        (paid
                                                 $11.00 per   $26.18 per
                                                  hour or      hour or
                                                   less)        more)
------------------------------------------------------------------------
Paid family leave................          12%           5%          21%
Short-term disability insurance..          40%          18%          61%
Paid sick-time...................          61%          30%          84%
Paid vacation leave..............          77%          49%          91%
------------------------------------------------------------------------
Source: Bureau of Labor Statistics. 2013 National Compensation Survey of
  Employers.

    Focusing specifically on paid parental leave, only 50 percent of 
new moms take paid leave of any length after the birth of their first 
child, often cobbling together accrued sick, vacation and personal 
time, and that number hasn't changed appreciably in more than a 
decade.\27\ Among women with lower levels of education, less than one-
fifth take any type of paid leave around the birth of their first 
child--the same percentage as in 1961.\28\
---------------------------------------------------------------------------
    \27\ See note 3.
    \28\ Ibid.
---------------------------------------------------------------------------
    The percentage of employers offering fully paid maternity leave has 
actually declined quite substantially in recent years, dropping from 17 
percent in 2005 to 9 percent in 2014.\29\ For men, it's no better. Just 
9 percent work for employers that offer paid paternity leave to all of 
their employees.\30\ The ``all'' here is important. Even within 
workplaces, employers may offer maternity, paternity or parental leave 
to some of their workers but not to most or all.\31\
---------------------------------------------------------------------------
    \29\ Matos, K., & Galinsky, E. (2014). 2014 National Study of 
Employers. Families and Work Institute Publication. Retrieved 26 July 
2014, from http://familiesandwork.org/downloads/
2014NationalStudyOfEmployers.pdf; Galinsky, E., Aumann, K., & Bond, J. 
(2011, August). 2008 National Study of the Changing Workforce. Families 
and Work Institute Publication. Retrieved 26 July 2014, from http://
familiesandwork.org/site/research/reports/Times_Are_Changing
.pdf.
    \30\ See note 16.
    \31\ Ibid.
---------------------------------------------------------------------------
C. State Policies on Paid Family and Medical Leave
    Fortunately, some States are taking the lead in addressing the 
challenges facing working families. Diverse coalitions of advocates, 
workers and business leaders have won significant policy changes, 
including paid sick days, paid family and medical leave, and expanded 
FMLA laws that cover more workers than Federal law. Those advances have 
established basic protections for millions of working families across 
the country and, in turn, have paved the way for more State innovation, 
seeding the ground for this national conversation.
    Most important for today, some States have created basic paid 
family and medical leave standards through statewide family leave 
insurance programs. California's program has been in effect for a 
decade and was recently expanded to give workers the ability to care 
for a wider range of seriously ill family members, including siblings, 
grandparents and grandchildren.\32\ New Jersey's program has been in 
effect for 5 years and Rhode Island's program went into effect at the 
beginning of this year.\33\ There is a growing body of evidence that 
paid leave in these States is working well--for workers and families as 
well as for employers.
---------------------------------------------------------------------------
    \32\ Cal. Unemp. Ins. Code  3300-3306.
    \33\ N.J. Stat.  43:21-25 to 43:21-31; R.I. Gen. Laws  28-41-34 
to 28-41-36.
---------------------------------------------------------------------------
    The California, New Jersey and Rhode Island programs build on 
longstanding temporary disability insurance (TDI) programs that these 
three States and two others--New York and Hawaii \34\--created decades 
ago to assure that most workers have access to a portion of their wages 
when a serious medical problem temporarily prevents them from working. 
Overall, about 22.5 million private sector workers live in States with 
paid family leave or temporary disability insurance laws in place--but 
that leaves out 89 million more.\35\
---------------------------------------------------------------------------
    \34\ Haw. Rev. Stat.  392-3, 392-21, 392-23, 392-25; N.Y. 
Workers' Comp. Law  201-205.
    \35\ National Partnership for Women & Families. (n.d.). Map: 24 
million Americans can better care and provide for their families when 
family and medical needs arise. Retrieved 24 July 2014, from http://
www.nationalpartnership.org/issues/work-family/24-million-americans-
benefit.
html.
---------------------------------------------------------------------------
D. International Comparisons
    It is worth noting that the United States is virtually the only 
economically competitive Nation in the world that puts its people in 
such a precarious position. All other countries in the Organisation for 
Economic Cooperation and Development (OECD) offer paid maternity leave 
to new mothers \36\; all but four (Ireland, Switzerland, Turkey and the 
United States) offer paid parental leave to new fathers \37\; and all 
but two (South Korea and the United States) guarantee paid sick leave 
to their workers.\38\
---------------------------------------------------------------------------
    \36\ World Policy Analysis Center. (2014). Workplace policies 
before and after childbirth. World Policy Forum Publication. Retrieved 
24 July 2014, from http://worldpolicyforum.org/tables/workplace-
policies-childbirth/.
    \37\ Ibid.; Siegelshifer, V. (2010, July). A Need for Non-
Transferable Paternity Leave in Israel (p. 5). Women's Budget Forum 
Publication. Retrieved 24 July 2014, from http://wbf.org.il/Uploaded/
paternityleaveenglish.pdf; International Finance Corporation. (2014). 
Women, Business, and the Law: Creating Economic Opportunity for Women: 
Mexico, 2013. Retrieved 24 July 2014, from http://wbl.worldbank.org/
data/exploreeconomies/mexico/2013#getting-a-job.
    \38\ McGill Institute for Health and Social Policy. (2011, May 2). 
Raising the Global floor: Adult Labour, A WoRLD Legal Rights Data base: 
Sick Leave. Retrieved 24 July 2014, from http://
raisingtheglobalfloor.org/policies/single-policy-1.php.
---------------------------------------------------------------------------
    The United States is an outlier worldwide as well. It's often said 
that we are one of three countries in the world out of the 185 surveyed 
by the International Labor Organization (ILO) that does not guarantee 
paid maternity leave to new mothers.\39\ That turns out to be 
outdated-- Oman, one of the other countries on that ``bad apple'' list, 
adopted a paid maternity leave standard in 2011.\40\ One can only hope 
that the other outlier, Papua New Guinea, does not beat us to the 
punch.
---------------------------------------------------------------------------
    \39\ International Labor Organization. (2014). Maternity and 
paternity at work: Law and practice across the world. Retrieved 24 July 
2014, from http://www.ilo.org/global/publications/ilo-bookstore/order-
online/books/WCMS_242615/lang-en/index.htm.
    \40\ Curtis, Mallet-Prevost, Colt & Mosle LLP. (2012, January 26). 
New Amendments to Oman's Labour Law. Oman Law Blog. Retrieved 24 July 
2014, from http://omanlawblog.curtis.com/2012/01/new-amendments-to-
omans-labour-law.html.
---------------------------------------------------------------------------
     iii. greater access to paid leave would create more economic 
                          opportunity for all
    All of the available research--from employer-generated studies to 
analyses of California's and New Jersey's paid leave programs to data 
that reflect the experiences of people fortunate enough to work for 
employers that offer some form of paid leave to analyses of parents in 
other countries--demonstrates the clear benefits of paid leave.
A. Paid Leave Promotes Greater Economic Security and Financial 
        Independence for Working Families
    Guaranteeing workers access to paid leave can improve families' 
economic security and promote financial independence in the face of 
major life events. Paid leave encourages workforce attachment. Mothers 
who take paid leave are more likely than mothers who do not to be 
working 9 to 12 months after a child's birth.\41\ They are also more 
likely to receive higher wages over time. In the year after the birth 
of a child, mothers who take paid leave are 54 percent more likely to 
report wage increases than mothers who do not and are 39 percent less 
likely to receive public assistance or food stamps, taking into account 
other socioeconomic and workplace factors that might explain these 
differences. When fathers take paid leave, they too are significantly 
less likely to receive public assistance or food stamps than fathers 
who do not.\42\ These figures are particularly important in context: 
Having a baby is the most expensive health event that families face 
during their childbearing years,\43\ and it is estimated that 13 
percent of families with a new infant become poor within a month.\44\
---------------------------------------------------------------------------
    \41\ Houser, L., & Vartanian, T. (2012, January). Pay Matters: The 
Positive Economic Impact of Paid Family Leave for Families, Businesses 
and the Public. Center for Women and Work at Rutgers, the State 
University of New Jersey Publication. Retrieved 24 July 2014, from 
http://www.nationalpartnership.org/site/DocServer/
Pay_Matters_Positive_Economic_Impacts_of
_Paid_Family_L.pdf?docID=9681.
    \42\ Ibid.
    \43\ Amnesty International. (2010). Deadly Delivery: The Maternal 
Health Care Crisis in the USA. Amnesty International Publication. 
Retrieved 24 July 2014, from http://www.amnestyusa
.org/dignity/pdf/DeadlyDelivery.pdf.
    \44\ Rynell, A. (2008, October). Causes of Poverty: Findings from 
Recent Research. Heartland Alliance Mid-America Institute on Poverty 
Publication. Retrieved 24 July 2014, from http://www.woodsfund.org/
site/files/735/69201/260704/363127/causes-of-poverty_report_by_
Heartland_Alliance.pdf.
---------------------------------------------------------------------------
    Family caregivers and workers with serious health conditions, too, 
are more likely to be able to stay and contribute in the workplace if 
they have workplace accommodations, such as paid leave.\45\ And helping 
older workers stay employed has real implications for their retirement 
security: A woman who is 50 years of age or older who leaves the 
workforce to care for a parent will lose more than $324,000 in wages 
and retirement.\46\ For men, the figure is substantial as well--close 
to $284,000 in lost wages and retirement.\47\ In addition, it is worth 
noting the role that personal and family illnesses play in personal 
bankruptcies.\48\ Paid leave could ameliorate that result.
---------------------------------------------------------------------------
    \45\ Ryan, E. (2014, June 30). Family Caregivers at Work. AARP 
Blog. Retrieved 26 July 2014, from http://blog.aarp.org/2014/06/30/
familycaregivers-at-work/.
    \46\ See note 15.
    \47\ Ibid.
    \48\ Himmelstein, D.U., Thorne, D., Warren, E., & Woolhandler, S. 
(2009, August). Medical Bankruptcy in the United States, 2007: Results 
of a National Study (Table 2). The American Journal of Medicine, 
122(8), 741-746. Retrieved 28 July 2014, from http://www.amjmed.com/
article/S0002-9343(09)00404-95/fulltext#sec2.1.
---------------------------------------------------------------------------
B. Paid Leave Benefits Businesses
    Whether employers offer paid leave to attract and retain workers or 
workers gain access to paid leave through a State paid leave insurance 
program, businesses experience cost-savings and other benefits when 
workers can take paid leave to address family and medical needs. First-
time mothers who take paid maternity leave are more likely than mothers 
who do not to return to work--and to return to work for the same 
employer--after taking time to recover and care for their children.\49\ 
Workers who are dealing with personal health issues or caring for a 
loved one are better able to stay employed when they have paid leave 
and other family friendly policies.\50\
---------------------------------------------------------------------------
    \49\ Laughlin, L. (2011, December 7). Presentation to the National 
Partnership for Women & Families' Work-Life Lunch Group, Washington, 
DC. Calculations based on U.S. Census Bureau Survey of Income and 
Program Participation, 2008 Panel, Wave 2. Data on file with the 
National Partnership for Women & Families.
    \50\ See note 15.
---------------------------------------------------------------------------
    Retaining workers is cost-effective because of the high costs that 
employers shoulder as a result of employee turnover. Researchers 
recently surveyed 31 company and academic case studies that calculate 
direct and/or indirect turnover costs for a variety of occupations 
across industries and wage levels. For high-wage, high-skilled workers, 
including in fields like technology, accounting and law, turnover costs 
can amount to 213 percent of workers' salaries.\51\ Across all 
occupations, median turnover costs are estimated to be 21 percent of 
workers' annual wages, and even in middle- and lower-wage jobs, 
turnover costs are estimated to be 16 to 20 percent of workers' annual 
wages.\52\ Direct costs associated with turnover include separation 
costs, higher unemployment insurance, costs associated with temporary 
staffing, costs associated with searching for and interviewing new 
workers, and training costs for new workers \53\; indirect costs can 
arise from lost productivity leading up to and after employee 
separations, diminished output as new workers ramp up, reduced morale 
and lost institutional knowledge.\54\
---------------------------------------------------------------------------
    \51\ 51 Boushey, H., & Glynn, S. (2012, November 16). There Are 
Significant Business Costs to Replacing Employees. Center for American 
Progress Publication. Retrieved 24 July 2014, from http://
www.americanprogress.org/wp-content/uploads/2012/11/CostofTurnover.pdf.
    \52\ Ibid.
    \53\ Allen, D.G., Bryant, P.C., & Vardaman, J.M. (2010). Retaining 
talent: Replacing misconceptions with evidence-based strategies. The 
Academy of Management Perspectives, 24(2), 48-64; See also note 51.
    \54\ Hausknecht, J.P., & Holwerda, J.A. (2013). When does employee 
turnover matter? Dynamic member configurations, productive capacity, 
and collective performance. Organization Science, 24(1), 210-225; See 
also Note 50.
---------------------------------------------------------------------------
    Studies from States with paid leave programs demonstrate the impact 
paid leave can have on retention, particularly among workers who were 
less likely to have paid leave before. In surveys conducted with 
California employers and employees several years after the State paid 
leave program was implemented, nearly 83 percent of workers in ``lower-
quality'' jobs (those paying less than $20 per hour without providing 
health insurance) reported returning to their employers after taking 
paid family leave, a 10-point improvement in retention over workers who 
did not take paid leave through the California program.\55\
---------------------------------------------------------------------------
    \55\ Appelbaum, E., & Milkman, R. (2011). Leaves That Pay: Employer 
and Worker Experiences with Paid Family Leave in California. Center for 
Economic and Policy Research Publication. Retrieved 24 July 2014, from 
http://www.cepr.net/documents/publications/paid-family-leave-1-
2011.pdf.
---------------------------------------------------------------------------
    In addition, 90 percent or more of California employers that were 
surveyed reported positive effects on profitability, performance and 
morale, or reported no effects--meaning that the negatives that some 
employers feared (concerns about shifting work to others, losing 
productivity, abuse, etc.) never materialized.\56\ New Jersey employers 
interviewed recently as part of a study about that State's paid family 
leave insurance program noted that paid leave helped reduce stress and 
improve morale among workers taking leave, as well as among their co-
workers.\57\
---------------------------------------------------------------------------
    \56\ Ibid.
    \57\ Lerner, S., & Appelbaum, E. (2014, June). Business As Usual: 
New Jersey Employers' Experiences with Family Leave Insurance. Center 
for Economic and Policy Research Publication. Retrieved 25 July 2014, 
from http://www.cepr.net/documents/nj-fli-2014-06.pdf.
---------------------------------------------------------------------------
C. Paid Leave Promotes Better Health and Well-Being for Working 
        Families
    When people have time to care for themselves and their loved ones 
without jeopardizing their ability to make ends meet and afford basic 
expenses, their health and well-being improves. Newborns whose mothers 
take at least 12 weeks of paid leave are more likely to be breastfed, 
receive medical checkups and get critical immunizations.\58\ Neonatal 
mortality is reduced when parents have access to paid leave.\59\ A 
recent review of international literature concludes that there are 
benefits for maternal health when fathers take paid leave, including a 
reduction in maternal illness and depression and an increase in well-
being.\60\
---------------------------------------------------------------------------
    \58\ Berger, L., Hill, J., & Waldfogel, J. (2005). Maternity Leave, 
Early Maternal Employment and Child Health and Development in the US. 
The Economic Journal, 115(501), F44.
    \59\ Ruhm, C. J. (2000). Parental leave and child health. Journal 
of Health Economics, 19(6), 931-60.
    \60\ See note 26.
---------------------------------------------------------------------------
    California's paid leave program has helped parents--particularly 
those in lower quality jobs--learn to care for their children and to 
find outside child care. Ninety-one percent of parents in lower quality 
jobs who took paid family leave through the State program reported a 
positive effect on their ability to care for their children, compared 
with 71 percent of parents in lower quality jobs who did not use the 
State paid leave program. In addition, 72 percent of parents in lower 
quality jobs who used State paid family leave reported a positive 
effect on their ability to arrange child care, compared to just half of 
those who did not use the State paid family leave program (49 
percent).\61\
---------------------------------------------------------------------------
    \61\ See note 54.
---------------------------------------------------------------------------
    Paid leave has important benefits when family members are ill as 
well. When children are critically ill--whether at birth or later--the 
presence of a parent shortens a child's hospital stay by 31 
percent.\62\ Active parental involvement in a child's hospital care may 
head off future health care needs and reduce costs.\63\ Similarly, 
family caregivers with paid leave who care for an elderly loved one are 
better able to help loved ones recover from illness, fulfill treatment 
plans, and avoid complications and hospital re-admissions, which can 
help lower health care costs and improve health outcomes.\64\ Family 
caregivers themselves are also better able to care for themselves when 
workplace policies anticipate and are responsive to their needs.\65\
---------------------------------------------------------------------------
    \62\ Heymann. J. (2001, October 15). The Widening Gap: Why 
America's Working Families Are in Jeopardy--and What Can Be Done About 
It. New York, NY: Basic Books.
    \63\ Heymann, J., & Earle, A. (2010). Raising the global floor: 
dismantling the myth that we can't afford good working conditions for 
everyone. Stanford, CA: Stanford Politics and Policy.
    \64\ See e.g., Institute of Medicine. (2008, April 11). Retooling 
for an Aging America: Building the Health Care Workforce (p. 254). 
Retrieved 28 July 2014, from http://www.iom.edu/Reports/2008/Retooling-
for-an-Aging-America-Building-the-Health-Care-Workforce.aspx; Arbaje et 
al. (2008). Postdischarge Environmental and Socioeconomic Factors and 
the Likelihood of Early Hospital Readmission Among Community-Dwelling 
Medicare Beneficiaries. The Gerontologist 48(4), 495-504. Summary 
retrieved 24 July 2014, from http://www.rwjf.org/grantees/connect/
product.jsp?id=34775.
    \65\ Met Life Mature Market Institute. (2010). MetLife Study of 
Working Caregivers and Employer Health Care Costs: New Insights and 
Innovations for Reducing Health Care Costs for Employers. Retrieved 26 
July 2014, from https://www.metlife.com/assets/cao/mmi/publications/
studies/2011/mmi-caregiving-costs-working-caregivers.pdf.
---------------------------------------------------------------------------
D. Paid Leave Impacts Government Revenues and Spending
    Paid leave is a wise public investment. More people at work, 
earning higher wages, means more people paying taxes and contributing 
to Social Security and other key public programs. Guaranteeing paid 
leave to more workers would likely lead to reductions in government 
spending. An analysis of States with paid leave programs found that 
women in those States are less likely than women in other States to 
receive public assistance or food stamp income following a child's 
birth, particularly when they use their State paid leave program.\66\
---------------------------------------------------------------------------
    \66\ Includes States with both paid family leave and temporary 
disability insurance (personal medical leave) programs. Houser, L., & 
Vartanian, T. (2012, April). Policy Matters: Public Policy, Paid Leave 
for New Parents, and Economic Security for U.S. Workers. Center for 
Women and Work at Rutgers, The State University of New Jersey 
Publication. Retrieved 25 July 2014, from http://smlr.rutgers.edu/cww-
report-policy-matters.
---------------------------------------------------------------------------
    In short, all of the evidence reveals that paid leave leads to 
stronger families and a stronger nation.
 iv. the path forward: toward an america where all workers have access 
                    to paid family and medical leave
    The big question is how we get from an America where just 12 
percent of hardworking people have paid family and medical leave to one 
where all do, so that working women and men, whether they live in 
California, New Jersey or Rhode Island--North Carolina, Wyoming or 
Massachusetts --or any other State, have the financial stability and 
peace of mind they need when a new child arrives or a serious health 
issue arises.
A. Celebrate Paid Leave as a Win-Win for Businesses and Working 
        Families; Create Resources for Employers
    First, there are a growing number of leaders at businesses of all 
sizes, and across industries, who can discuss and provide data about 
the tremendous benefits that paid leave policies offer. There are also 
a number of organizations that study business practices. They promote 
the good examples that leading employers set and can provide tools to 
other employers that want to follow suit.
    It is important to hear from employers who are already doing the 
right thing, like my co-panelists today, and many others. I'm thinking 
here of employers like Annette Bonilla from Environmental Services 
Associates (ESA), a medium-sized firm of 300 employees which is 
headquartered in California with offices in Oregon, Washington and 
Florida. ESA's employees gained access to paid family leave as a result 
of California's law. Ms. Bonilla says that the company has noticed the 
positive impact on her employees. In her words, ``[W]e began to notice 
that our employees who took time off when a new baby arrived or when a 
serious illness struck were less stressed than those in similar 
circumstances working in our other States. Less stressed workers mean 
more productive workers. We want to see all of our employees thriving 
in the same way as their Californian counterparts.'' \67\
---------------------------------------------------------------------------
    \67\ Better Workplaces, Better Businesses (n.d.). Businesses 
Support the Family and Medical Insurance Leave Act. Retrieved 25 July 
2014, from http://betterwbb.org/business-support-for-paid-family 
medical-leave-family act/.
---------------------------------------------------------------------------
    It is important to use meetings of business leaders, business 
publications and less formal business-to-business mentorships as 
vehicles to help allay concerns and answer questions about how 
employers can address business or management issues that arise when 
employees take family and medical leave--for example, best practices in 
cross-training employees, re-assigning work or hiring temporary 
replacements to pitch in while permanent employees deal with family or 
medical issues. Employers like Ernst & Young, Redwoods Group and many 
others can offer valuable guidance and dispel myths for others who want 
to do right by their employees.
    And we must also hear from families like Jeannine's, who can attest 
to the difference paid leave makes. Any of us who have been lucky 
enough to work for an employer that offers paid leave knows firsthand 
its impact.
B. Encourage More State Innovation
    The State paid leave programs in California, New Jersey and now 
Rhode Island have helped countless people care for their sons and 
daughters, fathers and mothers, husbands and wives. These programs also 
teach important lessons about program design, reveal employer best 
practices, dispel unfounded concerns, and encourage changes in the 
workplace and broader culture so that men are better able to 
participate in family care.\68\
---------------------------------------------------------------------------
    \68\ California's experience with men filing paid family leave 
claims to care for new children is remarkable. In the first year of the 
program (2004-5), men filed 17.3 percent of all baby bonding claims; in 
the most recent program year for which data are available (2013-14), 
men filed 33.6 percent of baby bonding claims. See State of California 
Employment Development Department. (2014). Paid Family Leave: 10 Years 
of Assisting Californians with Care. Retrieved 26 July 2014, from 
http://www.edd.ca.gov/disability/pdf/
Paid_Family_Leave_10_Year_Anniversary_
Report.pdf (2004-5 data); State of California Employment Development 
Department. (n.d.). State Disability Insurance (SDI) Statistical 
Information: Paid Family Leave (PFL) Program Statistics. Retrieved 26 
July 2014, from http://www.edd.ca.gov/disability/pdf/qspfl_PFL_Program_
Statistics.pdf.
---------------------------------------------------------------------------
    Federal programs can incentivize more State action. For example, 
the United States Department of Labor (DOL) is making available 
$500,000 to be divided among up to five States to analyze paid leave 
options. My understanding is that the DOL is expected to receive 
applications from more States than it can fund. That $500,000 should be 
a down payment on an appropriations request of $5 million for a State 
paid leave fund, which was included in the President's budget this year 
and in prior years and should be funded.
C. Adopt a National Paid Leave Standard
    Ultimately, the positive experiences of employers and States must 
pave the way for a national paid family and medical leave standard. We 
must replace today's patchwork of policies, in which people's family 
and medical leave experiences are dictated by chance and too often 
fraught with hardships or simply nonexistent. Our Nation urgently needs 
a system that affords working families the financial stability they 
deserve, and helps employers to build workforces that are committed, 
happy and productive. When we do that, our Nation will benefit from 
stronger families and a stronger economy, and we will be better able to 
compete in the 21st century and beyond.
    An effective national paid family and medical leave solution must 
have, at minimum, the following attributes:

    First, it must make paid family and medical leave available to all 
workers, regardless of their employer's size, and whether they work 
full-time, part-time or are self-employed. It must reflect an 
aspiration that is core to the American Dream, that people should have 
the freedom and mobility to be able to seek better opportunities for 
themselves and their families without worrying about losing key paid 
family and medical leave protections when they move jobs or relocate to 
a new State. And it must do so at a wage replacement level that lets 
families meet basic expenses.
    Second, it must reflect all the well-established reasons people 
need family and medical leave, including for caring for a new child, a 
loved one with a serious health condition, a worker's own serious 
health condition and for certain military family caregiving purposes; 
it must provide leave for an adequate length of time; and it must apply 
equally to women and men. It should recognize the Supreme Court's 
decision in United States v. Windsor when defining ``spouse.'' \69\
---------------------------------------------------------------------------
    \69\ United States v. Windsor, 133 S.Ct. 2675 (2013);U.S. 
Department of Labor, Wage and Hour Division. (2014, June 27). Notice of 
Proposed Rulemaking on the Family and Medical Leave Act. Retrieved 25 
July 2014, from https://www.federalregister.gov/articles/2014/06/27/
2014-14762
/the-family-and-medical-leave-act.
---------------------------------------------------------------------------
    Third, it must protect workers against retaliation for needing or 
taking leave.
    Fourth, it must be affordable for workers, cost-effective for 
employers, and offer efficiencies with existing employer and State-
based programs. Benefit levels can be capped at reasonable dollar 
amounts to avoid unduly high payments for higher-wage workers.
    Others features are critical, but these are among the most 
important.
                                 ______
                                 
    We at the National Partnership for Women & Families applaud you, 
Chairman Hagan, and members of the committee for taking the time today 
to consider the immense benefits to families and businesses when 
working people have access to paid family and medical leave. 
Demographic and economic factors make it essential that we come to 
terms with the fact that our current patchwork of policies is not 
working.
    I hope this hearing and other conversations in Congress and around 
the Nation spark intensive efforts to craft paid leave solutions that 
will assure working people the security and stability they need when 
they take time from their jobs to gaze into the eyes of a new child and 
form a lifelong bond, hold the hand of a dying parent, or recover from 
their own serious health issue. We look forward to working with you 
until we reach the day when all working families are assured that they 
are not one new baby or serious illness away from financial 
devastation. Thank you for your time and consideration.

    Senator Hagan. Thank you, Ms. Shabo.
    Our last witness is Kevin Trapani. Kevin is the President 
and CEO of the Redwoods Group, an insurance and consulting firm 
in North Carolina that has made paid family leave a part of his 
business operating philosophy. I'm proud to say that I've 
visited the offices of the Redwoods Group, and I can personally 
attest that you do have a positive work environment with a 
great group of very motivated employees.
    Mr. Trapani.

  STATEMENT OF KEVIN TRAPANI, PRESIDENT AND CEO, THE REDWOODS 
                     GROUP, MORRISVILLE, NC

    Mr. Trapani. Thank you, Madam Chairman, and thank you, 
members of the subcommittee. Thank you especially for your 
service to our country and for your interest in this topic and 
its dual benefits, both to employees and to businesses, which 
has been mentioned.
    Just briefly about the Redwoods Group, as Senator Hagan 
said, we're an insurance and consulting firm in Research 
Triangle Park, NC. We have 80 staff members. Our mission is 
very simple. It is to protect kids from sexual abuse and from 
drowning and from other harm. We do that by using the data that 
we get from an insuring transaction to know how kids are 
harmed, to help our customers, which are all nonprofit, child-
serving organizations, know how to change their operations to 
keep kids safe. That's the work that we do. So success for us 
is measured by lives saved, by souls saved, not by profit.
    However, profit is important to us. Profit for us is a 
metric of sustainability. Without profit, we don't exist. 
Without us existing, kids are at risk.
    My fellow CEO's ask me all the time, ``Isn't FMLA enough?'' 
And as you have heard, the answer is it's important, but it's 
not enough. Not every employee is eligible, and even those who 
are eligible often don't get paid leave to support their time 
away.
    We've talked about the dual focus of the hearing, the 
benefits for business and for employees. I think they are 
fundamentally linked. At Redwoods, our staff must be others 
focused. They can't be if their most basic needs aren't being 
met. Maslow taught us that. Taking time to heal, taking time to 
care for family--those are basic needs.
    I want to talk about two things quickly. I want to talk 
about our Redwoods Group leave policies and why I think 
Congress should consider a national paid leave policy. Our 
leave policies cover sick days, bereavement leave, community 
volunteer leave, and paid family leave.
    But leave without pay isn't useful to very many people. 
That's why we provide a short-term disability plan for eligible 
events, like medical problems or the birth of a child. And I 
agree that's not a disability, Senator Hagan. We also cover 
ineligible events, like caring for a loved one, by providing 
unlimited sick days. The result of our program is a loyal, 
long-tenured staff that has a deep commitment to our shared 
mission.
    I want to share a few paid leave stories with you, and 
they're not just moms and babies. Laurel Vadala was a new 
employee at Redwoods when she needed back surgery. She had 
great anxiety about losing her job. She supports others and 
other families financially. If she lost her job, the ripple 
effect would be significant. So FMLA was important to her. But 
the benefit of her short-term disability payment was hugely 
important for her to fulfill her multiple obligations.
    Steve Kehoe had an 80-year-old dad. He and Steve's mom had 
been married for 55 years. He was building houses right up 
until the day he had a stroke. Steve flew across the country to 
be with him. He was deteriorating quickly in the intensive care 
because his mom couldn't advocate for her husband the way she 
wanted to. There was a misdiagnosis.
    Steve got there, and in Steve's own way was persistent with 
the doctors. A cure was found. His dad recovered, and Steve 
wrote this to me: ``I don't know that my dad would have 
survived had I not been there.''
    I could tell you many, many, many more stories. But I will 
simply tell you that in our experience, paid family leave has a 
hugely beneficial effect on Redwoods. As has been said, paid 
leave users are more likely to return, which saves us the cost 
of interviewing, hiring, and retraining.
    An unintended consequence, an unexpected benefit, is that 
when others cover the work of a temporarily departed employee, 
those people's skills grow. They get better. They get more 
responsible. And when the person who has been covered for 
returns to work, they trust more deeply in the people who 
covered for them. The phrase used by our employees most often 
to describe Redwoods is ``it's a family.''
    We always say our people are our biggest assets. Yet 
investing in our people is not necessarily a strength of the 
American business model. When I go to bed at night, I have 80 
mortgages to pay. I have 125 kids to raise. Thinking about 
business that way is different, and thinking differently 
requires some coaching. As you think about what's possible, I 
hope you will consider peer networks.
    As a North Carolinian, I'm proud that my Senator is giving 
light to this topic. People shouldn't have to choose between 
financial security and fulfilling family obligations. 
Businesses benefit from providing paid leave. Paid leave should 
be universally available, and it will take leadership from you 
and from the business community.
    Thank you for inviting me to speak, for your selfless work 
for our country, and for your deep consideration of the needs 
of working families.
    [The prepared statement of Mr. Trapani follows:]

                  Prepared Statement of Kevin Trapani

    Senator Hagan, distinguished members of the subcommittee, I am 
Kevin Trapani, the CEO of The Redwoods Group.
    The Redwoods Group is an insurance and consulting firm based in 
Morrisville, NC, which has 80 employees, all but one of whom are full 
time. Our insurance and risk management services are pulled together in 
a business model borne out of a conviction to do things differently. We 
define ourselves, not by increased shareholder value, but by our place 
in a larger root system; one in which we are responsible to our 
employees (and their families), our customers (and the people they 
serve) and our global community--as well as to our owners. To be clear, 
we do not exist to make a profit, but making a profit is important to 
us. It is an essential metric of sustainability.
    As a business leader, I am delighted to have a chance to speak to 
both of the topics of this hearing: the benefits of paid family leave 
for businesses and for working families. In reality, these benefits are 
fundamentally linked. Our business success hinges on the work our 
employees do. As a result, their individual well-being is crucial to 
the impact of our collective work. But employees have lives outside of 
the office, and those lives matter for their success at work. As we 
learned from Maslow, people's basic needs must be met before they can 
think and act communally. That's why our workplace policies need to 
reflect the multiple commitments workers have in their lives. Paid 
leave is one such policy.
    Today, I will briefly describe my company's leave policies and 
explain why we offer paid family leave along with medical leave. I will 
also speak about why I believe Congress should consider a national paid 
leave policy.
    The Redwoods Group has a range of paid leave policies, including 
paid time for parents to engage in school activities, sick days, 
bereavement leave, volunteer leave, and, of course, paid family leave. 
These policies have helped make our company strong by building a loyal, 
long-tenured workforce deeply committed to our shared mission.
    While Redwoods expects and requires our employees to alert us to 
their need for sick days, we do not place a limit on the number of paid 
sick days an employee can use. We have had this policy in place for 13 
years, and it has very rarely been abused.
    Leave without pay is useful to very few people. That's why Redwoods 
also provides a Short Term Disability plan which replaces our 
employees' wages for eligible events such as a serious medical problem 
or the birth of a child. For ineligible events--like caring for a loved 
one--our employees use their unlimited paid sick days. In addition, the 
company pays employees during the days of the ``waiting period'' before 
Short Term Disability kicks in. On top of this, when a parent of a 
newborn or newly adopted child needs paternity or maternity leave, 
Redwoods has 5 days of additional paid leave that employees may use.
    A few facts about how our policies work in real life: including all 
the types of leave we consider ``eligible,'' on average, our employees 
use fewer than 3 sick days each per year. In our experience, employees 
who are trusted and who are in a nurturing workplace simply don't abuse 
privilege. The annual cost of our unlimited sick leave policy is less 
than the cost of a single additional employee, while the benefits are 
incalculable. Finally, over the past 10 years, our turnover has been 
less than 5 percent per year--about one-third of the norm for our 
business segment.
    Let me share with you some stories our employees have told me about 
their experiences with paid leave at Redwoods and without paid leave in 
earlier jobs:

    Dan Norber's experience with paid leave as a new dad:

          ``My daughter, Jocelyn Rose, was born on May 5th. I feel 
        exceptionally fortunate that she was born healthy and, after 
        crying for her first 15 minutes of life, generally very happy. 
          ``My wife and I are both from St. Louis and we have a huge 
        support network there. But we're in North Carolina, 1,000 miles 
        from home. Because I had the benefit of paternity leave, when 
        we left the hospital, we brought her home, and we learned 
        together what she needed in those first days. Now, about 12 
        weeks later, it is clear that this opportunity created a home 
        with two parents who can calm Jocelyn and, as importantly, can 
        support each other.
          ``For me, FMLA, paternity leave, and other programs provide 
        so much value outside of the direct caregiver and receiver. It 
        strengthens the caregiver's web of support and allows them to 
        dedicate themselves to serving a loved one.
          ``I look forward to the day when every father, caregiver, or 
        family member has the security to do what I was able to with my 
        daughter.''

    Trinity Faucett's experience when she was a new mom, before she was 
employed at Redwoods:

          ``I can share my personal experience as both an employee, 
        human resource professional, and, most importantly, a mother. 
        In my line of work, I have encountered many young parents who 
        are not able to afford to stay at home during the FMLA time 
        period due to financial difficulties. My own experience attests 
        to not only the financial strain but more importantly the 
        emotional strain.
          ``To my surprise, my first-born son decided to enter the 
        world 2 months early. I was working full-time and earned less 
        than $20,000 annually. I was not eligible for FMLA since I 
        worked for a small employer and had to pay for part of my own 
        health insurance. We were very blessed that my son did not have 
        any major complications, but he did have to stay in the 
        hospital for a month to learn how to feed and put on weight. I 
        was able to bring him home after 1 month of hospital stay. I 
        was out of work during that time without pay. After he came 
        home, I was only able to stay at home with him for another 
        month (about the time of his original due date). This created 
        financial strain but we had a loving family support system. 
        Since he was premature and had a fragile immune system, his 
        doctors did not recommend daycare but again we were so blessed 
        to have both grandmothers able to juggle their schedules to 
        care for him while I worked. Additionally, my employer allowed 
        me to bring him to work when I had no one able to care for him.
          ``I am so grateful for those who assisted us during that time 
        in our lives and in no way do I want to take away from the 
        blessings during the trials. However, I also know I can never 
        get the lost time back that I would have had if I could have 
        afforded to stay home longer. I suffered emotionally due to the 
        worry about my son's health, the piling medical bills due to 
        the extended hospital stay, the feelings of guilt for not being 
        able to be with him--all above and beyond the normal worries of 
        first-time motherhood. I decided to quit breast feeding sooner 
        than I would have liked and was not able to give him the time 
        and attention that I know he needed. I was fortunate to have 
        others in my life who loved him as much as I did. I know not 
        all mothers are so fortunate.
          ``My only hope is that 1 day when my children have their 
        children, they will be in a position to be able to spend as 
        much time as they desire for bonding and family time.''

    Laurel Vadala's experience with a back problem:

          ``After I started my job at Redwoods I had to have back 
        surgery. I had never had any sort of back problem before and 
        when the pain started it truly caught me by surprise. I had so 
        much anxiety about whether my job would be still there after my 
        surgery since I was dealing with a long recovery time. Our 
        family supports several people/families financially. Had I lost 
        my job due to my medical situation, it would have had a ripple 
        effect that would have caused a lot of hardship for a lot of 
        people. Our Redwoods HR department was wonderful. They helped 
        me with short-term disability paperwork and assured me that I 
        would have a position to come back to. I sincerely thank you 
        and Redwoods for the privilege to work for a company that cares 
        about their employees.
          ``One person's income affects more than just their immediate 
        family. When that income stops, there is an immediate impact 
        that is felt by everyone they know or organization they support 
        or business in their community that they frequent. It has far 
        reaching financial implications that affect us all.''

    As a leader, I believe in the importance of focusing on people's 
positive qualities and giving them the tools they need to maximize 
those qualities. Paid leave, whether it is needed to recover from the 
flu or to welcome a new baby, is one such tool.
    When employees take paid leave, as you now know, they are more 
likely to return to our company; this saves us the costs of 
interviewing, hiring, and retraining. Of course, it's necessary to 
cover the work of an employee on leave, which some may see as a 
challenge. However, at Redwoods, we've discovered that this so-called 
challenge creates a real opportunity for the business. Since we cover 
the work of an employee on leave by sharing it across the affected 
team, our more junior team members get a chance to learn and take on 
new responsibilities, furthering their development. This is a big plus 
for our company: junior workers have an opportunity to grow their 
skills and advance their careers and those who have been well-supported 
develop a deeper trust in their co-workers. This is one reason that, 
over time, when asked about the Redwoods environment, our folks most 
often call it ``a family.''
    Virtually every business leader has said at one time or another, 
``Our people are our biggest asset.'' Yet, investing in our people 
isn't always a strong commitment in American business models. Ensuring 
that folks are free to care for themselves or a family member when 
needed is an investment in our people--and it improves the results of a 
business--but it's a different way of thinking. Companies have learning 
curves when it comes to implementing new policies; those without paid 
leave have not had a chance to be in the classroom. Those of us who 
have paid leave implementation experience can provide peer support to 
other businesses that are ready to take the steps needed to maximize 
their employees' potential. Through learning communities, we can guide 
fellow businesses as they implement paid leave policies. I know that I 
have learned lots from my peers along the way. I hope you will consider 
the role of learning communities as an important element of any family 
leave legislation.
    A growing number of employers around the country not only provide 
paid family leave for their employees but also are calling for national 
paid family and medical leave legislation. I am delighted to be a part 
of that effort.
    I'll also say this: as a North Carolinian, I'm proud that our 
Senator is focusing on an issue that deserves congressional attention. 
It is vital that paid family leave be universally available in this 
country and it will take leadership from businesses and from Members of 
Congress to make that happen.
    Thank you all for your selfless work to serve our country and for 
your deep consideration of the needs of working families.

    Senator Hagan. To all of our witnesses, thank you. As I 
said in the opening, we will take a recess at 10:55, go vote, 
and then we will be back. I apologize for the interruption.
    I'm going to ask one question, and then I'm going to move 
on to let other Senators start their questions. One of the 
reasons that some businesses are reluctant to offer more family 
supportive policies like paid leave is a concern that the 
employees will take advantage of a more flexible program.
    Mr. Trapani, in the Redwoods Group, as you just stated, 
you've got a very generous policy of unlimited sick days and 
paid family leave. Can you tell us if you've found that your 
employees abuse the additional time the company offers?
    And, Ms. Gockel, obviously, Ernst and Young with--I'm not 
sure how many thousands you have in the country--whether or not 
in a larger organization, you might see a different standard.
    Mr. Trapani.
    Mr. Trapani. Thank you, Senator Hagan. Our experience has 
been that, on average, our employees take less than three sick 
days per year. In fact, we used to have a policy that people 
were entitled to 5 sick days maximum, and most people used all 
five. When we went to unlimited, the number of sick days came 
down. People in a nurturing environment who are trusted don't 
abuse privilege. That's not been our experience.
    Senator Hagan. Ms. Gockel.
    Ms. Gockel. I would absolutely agree. We, too, at Ernst and 
Young have unlimited sick days, and people do not abuse them--
less than five in any given year.
    Senator Hagan. Ms. Shabo, you've heard these two responses. 
Do you, in your research--what does the research tell us is the 
typical business experience with offering paid family leave? Do 
employees typically abuse these kinds of policies?
    Ms. Shabo. No. The research is incredibly consistent with 
what my co-panelists have said. In fact, the evidence from 
California, specifically, shows that about 91 percent have said 
that they are not aware of any abuse. This is after a statewide 
program has been in place for several years. Those who are say 
that it's incredibly isolated. Ninety-nine percent say they can 
think of fewer than five incidents of abuse.
    But, in general, these policies have many more positive 
impacts in New Jersey as well, and employers don't report any 
abuse. So this is not an issue. Our experience with the FMLA is 
consistent. Fewer than 1 percent of employers report abuse 
under the FMLA.
    Senator Hagan. Mr. Franken, since you were first on the 
scene.

                      Statement of Senator Franken

    Senator Franken. This is a great panel. Thank you all for 
your testimony, and thank you, Madam Chair, for chairing this.
    Mr. Trapani, we often hear concerns that providing paid 
leave will be too costly for employers. In your testimony, you 
highlight the cost that your business has saved because of paid 
family leave, stating,

          ``The annual cost of our unlimited sick leave policy 
        is less than the cost of a single additional employee. 
        Over the past 10 years, our turnover has been less than 
        5 percent per year.''

    Why do you think access to paid leave has reduced your 
turnover, and do you think these savings have made a 
significant contribution to your bottom line?
    Mr. Trapani. Thank you, Senator. There are a couple of 
pieces to that answer. First of all, unfortunately, our paid 
leave program is a competitive advantage for us in the 
marketplace. That's one of the reasons that people stay with us 
and, certainly, that they return after a paid leave experience, 
but also why they stay with us.
    Second, what happens with us is that that limited amount of 
cost is dependent on people not abusing it. If we had lots of 
people taking 15 or 18 sick days a year, we couldn't possibly 
afford it, and it would harm our business. But because the 
trust we offer them is returned with appropriate behavior, 
people are on the job more. They are more productive. They 
accomplish more. They serve more. We find that that cost, less 
than one person per year, is worth much more to us than adding 
another person.
    Senator Franken. How many people do you employ? What's one 
person over--what's the denominator?
    Mr. Trapani. We have 80 staff.
    Senator Franken. I'll bet you that in that environment, 
people get sick less because they're happier. That's a radical 
theory. Ms. Gockel, is that right? As you note in your 
testimony, Ernst and Young is a global company with offices in 
about 150 countries. How many of those countries offer paid 
sick leave?
    Ms. Gockel. I would have to check. I am the Americas 
Leader, so I know what we offer in the U.S. But, honestly, I 
don't know what we offer around the world.
    Senator Franken. Does anyone know?
    Ms. Shabo. I think I can speak to that question, Senator 
Franken. The United States is one of two countries in the world 
that does not offer paid maternity leave to new moms. We used 
to say it was one of three, but, actually Oman put a paid 
maternity leave policy in place in 2011. So I'm really hoping 
that we can do this before Papua New Guinea beats us--the other 
one.
    In terms of the OECD countries, we're the only one without 
a paid maternity leave policy. We're one of four without paid 
paternity leave, and we're one of two countries, along with 
South Korea, that doesn't offer paid sick leave.
    Senator Franken. But at least we've got Papua New Guinea.
    Ms. Shabo. Yes.
    Senator Franken. Well, that's good to know.
    Ms. Gockel, how has Ernst and Young's experiences as a 
global company, operating in countries that already offer paid 
leave programs, influenced your paid leave policies here? And 
do you find that offering paid family leave and flexible 
workplace policies in the United States helps your business 
here compete globally and compete here?
    Ms. Gockel. I would go back to the fact that it enhances 
our retention. When we looked at our parents, when we did our 
annual study, our annual survey, our parents were more engaged, 
or the most engaged of all of our people at EY. So if you think 
about engagement and engagement leading to retention and 
retention leading to a better bottom line, that, for us, is the 
business case. When we think about what we offer to our people, 
including a flexible work environment, including paid time off 
for sick time, for leave time, for family leave, that, for us, 
is our competitive advantage.
    Senator Franken. Thank you. One last question for Ms. 
Shabo.
    I'd like to hear more about your research on the facts of 
State paid leave programs that have been implemented in 
California, New Jersey, and Rhode Island. What effect have 
these programs had on the State economies and on businesses? 
Have these programs made opening small businesses more 
difficult? Have they increased State deficits?
    Ms. Shabo. There's no evidence that any of the sort of 
parade of horribles that you just mentioned have happened. 
Ninety percent of the businesses have reported positive or no 
negative impacts. Employers have noted a cost savings in 
California. About 60 percent of the employers in the State 
reported cost savings. New Jersey employers report less 
stressed workers, workers with higher morale.
    One of the really interesting things is an employer in 
California named Annette Bonilla, who has spoken on this 
before, has said that they've noticed that their employees in 
California are less stressed, more happy, and more productive 
than the employees in other States. They actually prefer a 
national solution so they can see those benefits.
    One of the things I just wanted to address in terms of the 
competitive advantage--I think that's important, and putting 
policies in place in States like California and New Jersey and 
Rhode Island doesn't erode the competitive advantage, because 
companies that want to do better for their employees can still 
offer more. These programs are offering 55 to 66 percent of a 
worker's wages. So there's much more that employers who still 
want that competitive advantage can do.
    But the really important thing is that we create a floor 
for workers so that they're not falling into poverty, so 
they're not falling into bankruptcy, so they're not struggling 
day to day to make ends meet, relying on public assistance or 
food stamps, or otherwise sort of spiraling into a downward 
rabbit hole of financial devastation.
    Senator Hagan. Thank you, Ms. Shabo.
    Thank you, Senator Franken.
    Senator Murray, maybe we'll have time for your questions 
before we need to vote.

                      Statement of Senator Murray

    Senator Murray. I'll try and go quickly. I really want to 
thank you for holding this incredibly important hearing. Paid 
leave is really a critical piece of the puzzle when it comes to 
improving our employment situation, leveling the playing field, 
addressing inequalities in pay and career advancement, and 
retirement savings so that our families can have a fair shot.
    But before I get to my questions, Chairwoman Hagan, I just 
want to commend you for your work on this committee over this 
past year. In just over a year as chair, I just want to note 
that this subcommittee under your leadership has had hearings 
on the importance of expanding financial literacy, and as we 
know, is important to Chairman Harkin, and became part of 
legislative language passed out of this committee.
    You had a hearing on the achievements of the newborn 
screening system that led to bipartisan passage in the Senate 
as well, and more recently a hearing to raise awareness about 
the dangers of child trafficking. I really want to commend you 
on your great leadership on this committee.
    As far as this topic, this is so important to families 
across the country today who are really struggling in a very 
tough economy where women do need to go back to work. It's an 
important part of their families' economic agenda, and paid 
family leave is really an important piece of the puzzle, as I 
mentioned.
    Research has shown that when women take paid family leave 
after the birth of a child, they are more likely to return to 
work within a year and return to work for the same employer, as 
everyone here has said. That's good for our families, it's good 
for employers, and as it turns out, it's good for the Federal 
budget.
    I sit here today as chair of the Budget Committee, and I'm 
especially interested in a set of findings from research done 
in our States with paid leave laws that women who take paid 
leave are 39 percent less likely to receive public assistance 
and 40 percent less likely to receive food stamps in the year 
following a child's birth than those who do not have family 
leave. I think this is an important point.
    Ms. Shabo, I won't take much time here, because I know a 
lot of members have questions. But could you just take a minute 
and further expand on the fiscal benefits that flow to the 
Federal Government from paid leave policies? We're talking 
about reduced use of job training programs, unemployment 
insurance, Medicaid. Is there data to back up any of those 
arguments?
    Ms. Shabo. We don't have hard data on those other sort of 
programs that you've talked about, although I think that's 
fascinating. I think one of the things we really need to do as 
we're having this conversation about the impacts of paid leave 
is consider what it's costing us not to have a national paid 
leave program, what it's costing us, as you mentioned, in 
unemployment, in housing subsidies, in job training programs.
    In thinking about the fact that the lowest wage worker, 
those in the lowest wage jobs, are not having access to paid 
leave, which is creating opportunities not to advance, but 
rather to face these impossible choices that cause them to 
leave their jobs and, therefore, rely on the public assistance 
programs that you're talking about. What we could be doing 
instead is creating opportunity, creating a playing field where 
people are able to take care of their families, whether they're 
caring for old people or young people, whether they're caring 
for a sick spouse or a sick parent, stay in the job, and 
succeed over time.
    Just one fact that's interesting, particularly, as we're 
thinking about the sandwich generation is that women, in 
particular, who take time off, who have to leave the workforce 
to care for an older parent, lose $324,000 in wages and 
retirement savings. That's both social security and private 
pensions, and that's a conservative estimate.
    When you think about that, you're thinking about not only 
people who are still working and planning to work for years, 
but you're also thinking about people who are hitting 
retirement age who need to be able to have that cushion. We 
need to keep more people working so that we can provide for 
social security and other public programs, but also so people 
can provide for themselves.
    Senator Murray. I think those are great points, and I hope 
that we really look at this as we continue to pursue this, not 
only the cost to the Federal Government because of other 
challenges that these women face and end up requiring other 
Federal assistance, but also the fact that this is a lifelong 
earnings issue that hits women.
    It's not just, Ms. Sato, when you lost your income while 
you were home for a few weeks or a few months. It's what 
happens to you when you retire and you've lost that earning 
and, therefore, your retirement savings is less as well.
    So this is a huge women's economic issue, and it's 
important to men, women, families, and businesses. I really 
appreciate you having this hearing today. Thank you.
    Senator Hagan. Thank you, Senator Murray.
    Senator Casey.

                       Statement of Senator Casey

    Senator Casey. Thank you, Madam Chair, and I especially 
appreciate your efforts to have this hearing, which is a topic 
that we don't discuss enough, and it's at a time when families 
are still stressed, even though we're in a recovery, and a lot 
of businesses are stressed as well, and it's important to 
examine it. So thank you for having the hearing.
    I wanted to ask a couple of questions to Ms. Shabo about 
some of the data which was really startling. I was looking at 
your testimony and then noting as you were doing--I know you 
couldn't get to all of it--but some of the highlights that were 
particularly significant, especially on this issue of turnover 
and retention, the one being the mirror image of the other or 
the inverse of the other.
    When I was in State government, I spent a lot of time 
working on long-term care issues, and one of the rationales, 
the arguments, for making sure that direct care workers in that 
context were compensated well was retention, that if a nursing 
home hires 10 workers and seven of them leave after a couple of 
months, all that training and all that effort costs the 
institution money. So I think it's important to point out, even 
as we're highlighting challenges that businesses have, that 
this retention issue is particularly significant.
    I noted in your testimony, you said,

          ``For high-wage, high-skilled workers''--and this is 
        a broad-based number--``including in the fields like 
        technology, accounting, and law, turnover costs can 
        amount to 213 percent of workers' salaries.''

Then you go on to talk about the positive impacts of paid 
family leave in reducing turnover and increasing retention. 
That is so powerful and so compelling, and I think we should 
continue to make that case.
    But, in particular, you also talk about,

          ``Ninety percent or more of California employers that 
        were surveyed reported positive effects on 
        profitability, performance, and morale or reported no 
        effects.''

That's a stunning number, and I think it's one that we should 
keep highlighting. In your work and your research, as you 
interact with employers, are you finding these numbers to be 
borne out in both anecdotal research as well as the survey 
research?
    Ms. Shabo. Yes. Thank you for the question, Senator Casey. 
Absolutely. There are a growing number of employers that are 
speaking out about their own paid leave policies and the 
benefits that they've seen and how that makes them feel about 
expanding national paid leave policies and building more State 
policies, creating a basic standard for all working Americans 
to have access to paid family and medical leave.
    We hear over and over again the same things that Maryella 
and Kevin have talked about, which is happier employees, more 
productive employees, more trust, more loyalty, more good 
feelings among co-workers, better feelings between management 
and workers because they have this level of trust. So I think 
the biggest source of misinformation that's out there is that 
paid leave policies and other family friendly policies are job 
killers. There's just no evidence whatsoever to support that 
assertion and, in fact, there's a growing body of evidence to 
the contrary.
    Senator Casey. Does anyone else on the panel want to 
comment on that or followup on that?
    Mr. Trapani.
    Mr. Trapani. Yes, Senator, just very quickly, and I think 
this is true for EY as well. Both are very demanding work 
environments. So sometimes we get the sense that because we do 
right for our employees that in some way it's a relaxing kind 
of environment of privilege. Not the case at all.
    If we succeed in our work, a child's life is saved. That 
tends to focus the mind. In order for us to be demanding in 
that regard and to expect that people will be others focused, 
as I said before, we have to take care of them, and when we 
take care of them, they return terrific results to us and for 
our customers.
    Senator Casey. Ms. Gockel, in terms of a big company--and I 
mentioned in this broad survey of accounting for high turnover 
rates, and I know that's part of what EY does. But what's your 
perspective on this?
    Ms. Gockel. Where we have been is in the middle 1990s, we 
were losing women at a much faster rate than men, 10 to 15 
percentage points difference, and we've narrowed that gap now 
down to 1 or 2 percentage points. For us, that retention 
statistic is incredibly important. We need all people in our 
workforce to give the very best service to our clients, and 
that retention really makes a big difference to us. Again, that 
retention leads to better profitability and better service to 
our clients.
    Senator Casey. Thank you very much. I'm out of time, but 
thank you very much for your testimony.
    Senator Hagan. Senator Harkin.

                      Statement of Senator Harkin

    The Chairman. First of all, I apologize for being late. I 
had another obligation. But I just want to thank you very much, 
Madam Chair, for having this hearing, but more than that, to 
thank you for your stewardship of this subcommittee during the 
time that I've been chairman.
    I've chaired three committees in the Senate in my tenure 
here, over 30 years, and there's nothing a chair likes more 
than a subcommittee chair that takes charge and gets things 
done and is very productive. I needn't go through the 
production statistics that Senator Murray said, but it's been 
just amazing what you've been able to do with this subcommittee 
to advance so many good issues and pieces of legislation.
    So it's just my way, as chair who is retiring this year, to 
say thank you very much for your stewardship of this very 
important subcommittee. And as I retire, I know I leave it in 
good hands. Thank you very much.
    Senator Hagan. Well, you know you cannot be replaced.
    OK. We're going to take a short recess now due to the two 
votes, and, hopefully, we will reconvene in about 20 minutes. 
We'll take a recess. Thank you.
    [Recess.]
    Senator Hagan. The hearing will now come back from recess. 
I do apologize and thank you so much for your patience while we 
had several votes.
    Ms. Sato, I wanted to ask you a question, in particular, on 
the nurse family visiting program. You talked, obviously, about 
your personal story. But your professional role brings you into 
contact with many moms from all different kinds of backgrounds.
    You're the program director for Durham Connects, which is 
the community's nurse family visiting program, which is one of 
the Nation's most successful and studied models for improving 
prenatal health, birth outcomes, and child development and 
school readiness. I am a big fan of this program. I think it 
really does a good job in helping new moms and, obviously, the 
outcomes of their children.
    Can you explain what the nurse family visiting program is 
and then describe to us what the impact is of not having any 
leave at all for the families of some of the moms that you meet 
with? Could you discuss that situation?
    Ms. Sato. Yes, absolutely. Thank you, Senator. Durham 
Connects is a universal nurse home visiting program. In a 
nutshell, if you have a baby in Durham County, North Carolina, 
you're entitled to a free, no-cost nurse home visit after the 
birth of your baby. This is in order to support parents at the 
most basic level for health and well-being.
    We do a physical assessment of the baby and the mother, and 
we also support them in whatever ways they might need in how 
their life has changed since having a baby, which ranges from, 
as you can imagine, financial to peer support, depression 
screening, breast feeding support. It really runs the gamut, 
because we are universal.
    We see everyone in our community, and it's a very diverse 
community. So we do see that a lot of families are struggling 
financially, certainly, but also in feeling supported as a 
parent in general. We do often see parents going back to work 
in just days or weeks, very shortly after giving birth, because 
they don't have paid leave, and they can't afford to take time 
off.
    This causes a lot of stress, and we do know through 
research that that kind of stressful environment, sometimes 
called toxic stress, can contribute to health problems down the 
road in a person's life. And it certainly puts the mother and 
the child and the family at risk for other bad things that 
could happen. Our job is to try to mitigate that, and we do 
that by connecting those families, first identifying any issues 
that they might have as determined by them, and then connecting 
them with community supports and local community that can 
support them in those issues.
    Senator Hagan. Do you ever have a hard time scheduling a 
time for these individuals who have to go back to work so 
quickly?
    Ms. Sato. Yes. We try to be flexible. We typically see 
parents around 3 weeks postpartum, but we often do move them up 
or back, depending on work schedules, availability. They're 
also juggling lots of appointments. So, yes, we are flexible 
there. But parents value the support, and I think they try to 
let us in their homes to really share what their concerns and 
issues are as a parent. And for many people, no one has even 
bothered to ask them how they're doing.
    A lot of people just really are so grateful to have that 
support. But it's just very unfortunate when we try to help 
people navigate this maternity leave, if you can even call it 
that, because so many of our families have no paid sick or 
vacation, or unpaid leave is not a possibility for them.
    They are really juggling a lot of issues, especially with 
child care, which can present a lot of scary problems if you 
leave your child with the wrong person. So helping them go 
through their options can be tricky, because there's just not a 
lot of infrastructure there.
    Senator Hagan. Thank you.
    Ms. Shabo, you briefly noted the disparities between those 
who have access to paid leave and those who don't. Can you 
discuss which workers are the most likely and the least 
likely--and then I was also struck by the dilemmas facing 
single working moms. Obviously, without paid leave, that really 
puts them in a bind. Can you talk about the research that 
you've seen on that?
    Ms. Shabo. Yes, I'd be happy to. Thank you for the 
question. As you and I have both specified, and other folks 
have, too, 12 percent of workers overall have paid family 
leave. That's designated paid time for a new parent to take 
care of a new child or for a family member to take care of a 
loved one. If you look at the workers in the bottom wage 
quartile--those are folks that are earning $11 an hour or 
less--that drops to 5 percent.
    Those are also folks who are very unlikely to have short-
term disability insurance. Only about 18 percent have short-
term disability insurance, compared to 40 percent overall and 
49 percent have vacation. So 50 percent of those low-wage 
workers, those in the bottom quartile, don't have any paid time 
off from work of any kind, of any length, at all. These are the 
folks that we're really concerned about.
    So I'm thinking here, in particular, of a mom named 
Victoria, who is one of the people whose stories we've heard as 
we've been doing this work. She had a C-section, an emergency 
C-section, early. She went back to work 5 days after giving 
birth with staples in her stomach and her child in the NICU. 
This should not happen in America.
    In less dire circumstances and particularly with single 
moms who work in jobs that are less likely to offer paid sick 
days, paid leave, paid vacation, because they're working in 
service occupations and other lower wage jobs, those folks are 
leaving their children with a sort of rotating cast of 
caregivers, parents, and babysitters. That means that that baby 
is not getting the attachment that it needs with its mom. The 
mom is not able to establish breast feeding.
    It's a really lose-lose situation for all concerned, and it 
has really detrimental impacts, not only on that family, but on 
that child as that child grows. That hurts everybody.
    Senator Hagan. Thank you.
    Senator Warren.

                      Statement of Senator Warren

    Senator Warren. Thank you, Madam Chairman, and thank you 
very much for holding this hearing. Your leadership in this 
area has just been extraordinary, and this is how we make a 
real difference in people's lives. Thank you for all that 
you're doing here.
    Thank you all for being here today.
    Ms. Sato, thank you for your testimony today. We all know a 
new baby should be a cause for celebration, not a path to 
poverty. Back in 2006, Professor Melissa Jacoby at the 
University of North Carolina Law School and I published a study 
of families in bankruptcy, and it indicated that about 7 
percent of those in bankruptcy cited the birth of a child as 
the primary cause of their bankruptcy declaration. Other 
research has also shown that having a baby is the leading cause 
of short-term poverty in the United States.
    As we've talked about, the United States is the only high-
income country not to require paid family and medical leave, 
and the result is dismal. The Bureau of Labor Statistics in the 
2013 National Compensation Survey found that only 12 percent of 
private sector workers were offered paid family leave time. 
According to the U.S. Census, even when they piece together 
sick days and vacation time, only half of new mothers are able 
to take any paid leave time.
    Ms. Sato, what I wanted to ask you about--your experience 
in being denied FMLA leave time for your first child is 
disheartening. But could you explain just briefly the 
additional financial hardship you would have faced if you were 
like many new mothers and lacked any vacation or sick time to 
help bridge the gap?
    Ms. Sato. Yes. Honestly, that's why I'm here, because I was 
dumbfounded by the circumstances in which people are having 
children. As a relatively privileged person who is educated and 
married, I had some options of leaving and finding another job 
and negotiating for myself, and many families don't have those 
options. This is why I sought out Moms Rising and I said there 
has to be someone doing this work.
    I struggled financially after the birth of my first child, 
and I had a real decent job, and I made a decent living wage. 
But it really illustrated to me how much finances can really 
stress your family life. When I should have been focusing on 
breast feeding, when I should have been focusing on changing 
diapers and caring for my baby and trying to get some sleep, I 
was worried about paying our mortgage and keeping up my health 
insurance. I was worried about buying diapers.
    My husband was fortunate enough to take a little bit of 
unpaid leave as well. His employer didn't have to, but he did 
it because it was the right thing. They were exempt from FMLA 
because they were too small, but they did it anyway. But that 
also meant several more weeks of him not being paid.
    So, yes, we were piecing it together. We used savings for 
those few weeks. It was only a short amount of time because I 
went back after 6 weeks, unfortunately. But it would have been 
longer, and we really had to think hard about that.
    Senator Warren. I appreciate it, and I appreciate you 
coming here today to talk about this. I appreciate the work 
that Moms Rising is doing on this to draw attention to the 
importance of our getting paid family leave here.
    But I also want to take this over to the next part, and 
that is to ask Ms. Shabo--State and local governments are 
leading the way in implementing paid family and medical leave 
and demonstrating how these policies can work for families. For 
example, California has had a successful family leave insurance 
program in place for the past decade.
    A longitudinal study of the impact on California has shown 
that the paid leave policy significantly increases the 
likelihood a new parent will be working 9 months after the 
birth of a child. And, as you have already talked about, Mr. 
Trapani, the importance of retaining experienced workers can 
actually be helpful to businesses.
    But while we fight for paid family leave, it's important to 
remember that many workers do not even have access to any paid 
sick leave. In Massachusetts, there are more than a million 
working adults who have no right to take off a single day when 
they are sick.
    Now, this November, our State will vote on a ballot 
initiative to give workers the ability to earn up to 40 hours 
of sick time a year. For businesses with 10 or fewer workers, 
the sick time could be unpaid. But for businesses with more 
workers, the time would be paid.
    Ms. Shabo, could you expand on what other States are doing 
to establish paid family and medical leave programs and what we 
could learn from them? And I see that I'm about out of time, 
so, if you could, just go through this briefly.
    Senator Hagan. You go right ahead.
    Senator Warren. Thank you, Chairman.
    Ms. Shabo. Thank you, and thank you for the question. I do 
hope that Massachusetts succeeds and joins actually Senator 
Murphy's great State of Connecticut in becoming the second 
State to offer paid sick days to workers. Paid family leave 
policies are in place for, again, sort of serious health 
conditions, new babies, in three States, California, New 
Jersey, and Rhode Island. In those three States, those programs 
were built on longstanding temporary disability insurance 
programs.
    Those programs have existed for decades in those three 
States, California, New Jersey, and Rhode Island, as well as in 
New York State, which is looking to adopt a paid family leave 
law shortly, hopefully, and Hawaii, which is also looking at 
this. These laws are working well in all of these States. More 
than 20 million workers in the country are covered by those TDI 
or paid family leave laws. But that leaves out 89 million 
workers or so. So we are not doing enough.
    In our study, Expecting Better, where we looked not only at 
paid family leave, but also at sick days and at Family and 
Medical Leave Act expansion so that workers like Ms. Sato would 
be covered, we found that some States were doing well, but 31 
States around the country, 31, got a D or an F in our report. 
Seventeen States affirmatively got Fs. And we've done this 
analysis a couple of times now, and the results are unchanged.
    So we need to do more, and we need to do more at the 
national level. But States do lead the way. There are grants 
that are coming from the Department of Labor to States that 
have applied, and we understand that more States have applied 
than there is actual money to fund, so that's good news.
    Senator Warren. That's a good step. They need more money.
    Ms. Shabo. But there's more that needs to be done, and we 
need to establish a national paid leave policy that covers 
everybody.
    Senator Warren. Good. Again, thank you all for being here 
today and thank you for speaking out on this issue.
    Thank you for your great leadership on this, Chairwoman 
Hagan.
    Senator Hagan. Thank you, Senator Warren.
    Senator Murphy.

                      Statement of Senator Murphy

    Senator Murphy. Thank you very much, Madam Chair, and let 
me add my thanks for your focus on this issue and your 
willingness to bring it before the committee today. Let me talk 
about Connecticut's paid sick law for a moment, because we're 
really proud of it. We just didn't understand the idea that 
there would be a business case for requiring someone to show up 
for work when they're sick.
    Not only is it the right thing to do to allow people to 
have a minimal number of days in which they are paid to stay 
home when they're sick, but it's also a pretty good business 
practice to make sure that you don't have really sick people 
showing up and making everybody else sick. We're proud that 
we've been the leader--sorry that we're the only State, but 
we're starting to get some data back.
    Mr. Trapani, I want to talk to you about the business case 
for paid sick leave and for paid family leave, because one of 
the claims that was made was that there was going to be sort of 
a woodworking effect that once you allowed for people to take 
paid sick leave, they were going to take it regardless of 
whether they needed it or not. We have enough data in 
Connecticut to tell us that that actually isn't the case, that 
two-thirds of employers report that there was virtually no 
expansion of the number of days that individuals were out sick, 
having a law in place now that pays them for it versus the 
prior situation in which if you were home sick, you didn't get 
paid for it.
    Can you talk a little bit about that specific issue and how 
you sell to your fellow employers the idea that, in fact, there 
isn't evidence, anecdotal or now in Connecticut empirical 
evidence, that employees are abusing the ability to use paid 
family or sick leave?
    Mr. Trapani. Thank you, Senator, and thank you for your 
leadership in Connecticut on this topic. Work has dignity. 
People want to work. When work has meaning, people want to work 
even more. And when people are trusted when they do work that 
has meaning, they respond with incredible effort. That's been 
our experience.
    What the data shows is that people respond in those 
situations. We have 80 employees. I'm proud of the work we do. 
We don't have 190,000 employees. We don't have the whole State 
of California. So anything that happens at Redwoods is by 
definition anecdotal. But what I can tell you is the 
overwhelming aggregation of our anecdotes is that people work 
harder, longer, and in a more committed way when they are 
trusted.
    So the data for us was that we had a limitation of 5 days, 
and when we went to unlimited--and people took--most of the 
time, on average, they took about 5 days. When we went to 
unlimited, they took only about three, so there was a decline. 
We were paid back for our trust. So our experience has been 
very, very compelling.
    Senator Murphy. Did you want to add something, Ms. Shabo?
    Ms. Shabo. Yes, if I could jump in. In addition to the data 
from Connecticut on paid sick days, we now have data from San 
Francisco, which was the first city to put a paid sick days law 
in place; from Washington, DC.; from Seattle; from Connecticut; 
and we'll be getting more data from New York City and Portland 
and now Jersey City and Newark.
    The data that we do have is extremely consistent with 
Connecticut's data and consistent, actually, with the Redwoods 
data. Both nationwide for employers that offer paid sick days 
and also in San Francisco, the average number of days that 
workers take is three, despite the fact that under the San 
Francisco law, workers could take as many as 9 days for workers 
in businesses with more than 10 employees.
    The employer experience has been very much the same. Sixty 
percent or more of San Francisco employers support the law, 
similar to Connecticut, and people are seeing health impacts. 
This is really important in terms of the wage and the 
disparities question that you were asking, because for the 
average family without paid sick days, just three and a half 
unpaid days away from work can jeopardize that family's ability 
to put food on the table for the entire month, and it can 
jeopardize their health insurance as well.
    So these are critically important policies that are put in 
place to allow people to not go to work and infect others 
because they have no other economic choices, to be able to get 
preventive healthcare, which reduces healthcare costs, and to 
be able to care for their families.
    Senator Murphy. Ms. Gockel, I wanted to talk to you about 
how we treat moms and dads. I'm the father of a 5-year-old and 
a 2-year-old, so I'm not far away from the point in my life 
where I was able, because of my job, to be able to have enough 
flexibility to be at home and help out with those critical 
first few weeks and months.
    How does your company and other companies in your situation 
treat family leave for male employees, as compared to female 
employees? The conventional wisdom is that this is an issue for 
mothers. It's not. It's an issue just as much for dads as well. 
What are the policies that you've adopted in this case?
    Ms. Gockel. Thank you for asking that question, Senator 
Murphy, and thank you to the committee for all of your 
leadership on this very important topic. With regard to 
parental leave, it's equal between men and women. We have 6 
weeks of fully paid parental leave if you are the primary 
caregiver, whether you're a mom or a dad, whether you're a 
birth mother or an adoptive mother like I am, and 6 weeks is 
the same.
    The second point I'd like to make is that we participated 
in a study that was run by Boston College, their Center for 
Work and Family. And what they learned was that the men found 
that 2 weeks of paid parental leave was what was considered 
socially acceptable, but what they would really like is about 2 
to 4 weeks of time off. So men, I think, are still struggling a 
bit with what's socially acceptable and what they would really 
like to do.
    What we find is that our dads do take the time off, as I 
mentioned. Nearly every person eligible for parental leave 
takes it, including all the dads. That's really important, 
because the more that dads support the policies that at one 
point were thought to be just women's issues, they support our 
women, and they support other dads who are interested in doing 
this and want to do it and want to find a way to do it.
    Senator Murphy. I thank you for your policy, and, of 
course, it is workplace policies that drive what is considered 
socially acceptable. There are two fights here--and I'm sorry. 
I'm over my time, Madam Chair. But there is a fight to make 
sure that we have policies that give access to all employees 
for paid family leave, to make sure that it's equal between 
female employees and male employees, and then to make sure that 
there isn't a hidden message delivered to a certain set of 
employees or a certain gender of employees that even though you 
have it available, we'd rather that you not take it.
    I know for a lot of men, that message is delivered, that 
you technically have it, but we'd rather that you not use it. 
So that's a challenge for us as well, maybe not one that we can 
take care of in law, but certainly one that we can try to take 
care of with the bully pulpit.
    Ms. Gockel. When we studied this issue in 2002, we did a 
lot of research and benchmarking with other companies that had 
paid family leave on their books, and it was that exact issue: 
We have it, but most men don't take it. When we looked at--our 
actuaries told us that we'd have about 950 births in a year, 
half of whom would be men whose spouses or partners gave birth, 
and the reality was they all took their parental leave, even in 
2002.
    Senator Murphy. Thank you, Madam Chair, for letting me go 
over.
    Senator Hagan. Great. Thank you, Senator Murphy.
    I had one last question for the hearing. Ms. Gockel, in 
your testimony, you noted some interesting findings about how 
the next generation of workers view paid family leave. And 
according to the Boston College Center for Work and Family, 93 
percent of dads from the millennial generation said that it was 
important for their employer to provide paid parental leave, 
sort of echoing what you just Stated. More than any other 
generation in this study, it was that generation.
    So as this next generation of workers, the millennials, 
that are 60 percent of Ernst and Young's workforce, I 
understand, becomes a greater share of our entire country's 
workforce, do you think that more companies will adopt paid 
family leave because their employees demand it?
    Ms. Gockel. Thank you, Chairwoman. We do have about 60 
percent of our people at EY in the United States who are Gen Y 
or millennial, and that is really challenging our norms and 
what we think of as the right thing to do. So for us at EY, 
those 60 percent really are beginning to help us think through 
the differences, what else we could be doing, how we could 
better or more effectively communicate, and what kinds of 
benefits they are interested in.
    So we ask our people, and that's where our global people 
survey responses really come in handy. We know that we can look 
at that survey and look at those results and know what our 
people will want next.
    Senator Hagan. Thank you.
    I hate to bring this hearing to a close, but I do thank all 
of you for your testimony. I think you've shed a lot of light 
on this issue for so many individuals who were here and who are 
obviously looking at this and learning quite a bit. You know, 
as a mother of three adults, I certainly understand the dilemma 
that goes with what you're going to do after the birth of your 
child. And as a full time working mother, I certainly had many, 
many things to consider.
    Ms. Gockel, once again, we're so glad that your daughter is 
here with us today, too. Thank you.
    Ms. Gockel. Thank you.
    Senator Hagan. But I really do appreciate this testimony. I 
think you've heard from the other senators how important this 
is to us as leaders in the U.S. Senate, and we also know the 
echo effect of how this impacts so many individuals and, 
particularly, the future of our country with these young kids--
the young children coming into this world.
    This hearing is going to remain open for 10 business days 
for other subcommittee members to submit statements or 
questions for the record. And this hearing is now adjourned. 
Thank you.
    [Additional material follows.]

                          ADDITIONAL MATERIAL

Prepared Statement of Matthew Melmed, Executive Director, ZERO TO THREE

    Chairman Hagan and members of the subcommittee, my name is Matthew 
Melmed. I am the executive director of ZERO TO THREE, a national non-
profit organization that has worked to advance the healthy development 
of America's babies and toddlers for 35 years. I would like to start by 
thanking the subcommittee for its interest in building upon the 
successes of the groundbreaking 1993 Family and Medical Leave Act. I 
would also like to thank the subcommittee for providing me the 
opportunity to discuss the critical importance of paid family leave for 
our Nation's youngest families, those with newborns, infants and 
toddlers.
    We often think of paid family leave as a work support. It certainly 
would be a much-needed economic lifeline for families who face tough 
financial choices when they need to take time off from work to care for 
a family member or themselves. The past hundred years have brought 
dramatic changes to society and how its basic unit, the family, 
functions economically. One of the most significant changes has been 
women's entrance to the workforce. Many of those women are mothers, and 
we have been asking them to balance their career and motherhood with 
minimal support. We also have been signaling to fathers that their 
presence with a newborn or newly adopted child is not important. In 
short, we have not been valuing the working families who contribute so 
much to our economy, not only through their current productivity, but 
also through the role they play in shaping the workforce of the future.
    So today, I want to explore what family leave policy means for 
babies as they start out on a developmental journey that will shape the 
rest of their lives. Because while society has been evolving, one thing 
has not changed--the developmental needs of our youngest children. And 
the most fundamental of those needs is this: Babies need time with at 
least one caregiver who is crazy about them.
       the importance of unhurried time in the first year of life
    Science has significantly enhanced what we know about the needs of 
infants and toddlers, underscoring the fact that experiences and 
relationships in the earliest years of life play a critical role in a 
child's ability to grow up healthy and ready to learn. We know that 
infancy and toddlerhood are times of intense intellectual 
engagement.\1\ During this time--a remarkable 36 months--the brain 
undergoes its most dramatic development, and children acquire the 
ability to think, speak, learn, and reason. The early years establish 
the foundation upon which later learning and development are built. If 
experiences in those early years are harmful, stressful, or traumatic, 
the effects of such experiences become more difficult, not to mention 
more expensive, to remediate over time if they are not addressed early 
in life.
---------------------------------------------------------------------------
    \1\ Jack Shonkoff and Deborah Phillips, eds. 2000. From neurons to 
neighborhoods: The science of early childhood development. Washington, 
DC: National Academy Press.
---------------------------------------------------------------------------
    Research demonstrates that forming secure attachments to a few 
caring and responsive adults is a primary developmental milestone for 
babies in the first year of life. During the earliest days and months, 
children learn about the world through their own actions and their 
caregiver's reactions. They are learning about who they are, how to 
feel about themselves and what they can expect from those who care for 
them. Such basic capacities as the ability to feel trust and to 
experience intimacy and cooperation with others develop from the 
earliest moments of life.
    Parents are the key to this remarkable period of development. As 
the groundbreaking From Neurons to Neighborhoods: The Science of Early 
Childhood Development showed, a young child's parents structure the 
experience and shape the environment within which early development 
unfolds.\2\ Early relationships are important for all infants and 
toddlers, but they are particularly important for those living in lower 
income families because they can help serve as a buffer against the 
multiple risk factors these children may face. These early attachments 
are critical because a positive early relationship, especially with a 
parent, reduces a young child's fear in novel or challenging 
situations, thereby enabling her to explore with confidence and to 
manage stress, while at the same time, strengthening a young child's 
sense of competence and efficacy.\3\ Early attachments also set the 
stage for other relationships and play an important role in shaping the 
systems that underlie children's reactivity to stressful situations.\4\
---------------------------------------------------------------------------
    \2\ Ibid.
    \3\ Ibid.
    \4\ Ibid.
---------------------------------------------------------------------------
    All infants need ample time with their parents at the very 
beginning of their lives to form these critical relationships. The 
better parents know their children, the more readily they will 
recognize even the most subtle cues that indicate what the children 
need to promote their healthy growth and development. Developing these 
relationships takes care, consistency, and, above all, time: time off 
from the flow of daily life to decipher the nuanced patterns and 
communications of a newborn.
    Those of us who are parents know it isn't easy to do this. It's 
like a dance that babies and their caregivers choreograph as each 
becomes highly attuned to the cues of the other. For example, early on 
infants are learning to regulate their eating and sleeping patterns and 
their emotions. If parents can recognize and respond to their baby's 
cues, they will be able to soothe the baby, respond to his or her cues, 
and make the baby feel safe and secure in his or her new world. Trust 
and emotional security enable a baby to explore with confidence and 
communicate with others--critical characteristics that impact early 
learning and later school readiness. The success with which we 
accomplish the three stages of bonding, attunement, and attachment lays 
the foundation for all future relationships.
    When the developmental tasks go unattended--when the dance breaks 
down--babies learn that they cannot rely on their caregivers to meet 
their needs. Children raised in unreceptive or unstimulating 
environments perceive that their coos and cries will not get a 
response, and so they stop trying. On the other hand, children who are 
able to develop a secure attachment with at least one trusted adult are 
observed to be more mature and positive in their interactions with 
adults and peers than children who lack secure attachments,\5\ and have 
a greater capacity for self-regulation, self-reliance, and adaptive 
coping skills later in life.\6\
---------------------------------------------------------------------------
    \5\ National Research Council and Institute of Medicine, From 
Neurons to Neighborhoods: The Science of Early Childhood Development. 
Jack Shonkoff and Deborah A. Phillips, eds., Washington, DC: National 
Academy Press, 2000.
    \6\ Douglas Goldsmith, David Oppenheim, and Janine Wanlass. 
``Separation and Reunification: Using Attachment Theory and Research to 
Inform Decisions Affecting the Placements of Children in Foster Care.'' 
Juvenile and Family Court Journal 55 no.2 (2004): 1-13.
---------------------------------------------------------------------------
    In addition to building secure and healthy early attachments, 
unhurried time at home with a newborn has other benefits for babies. 
Studies show that paid family leave yields higher rates and longer 
periods of breast feeding, which reduces the rates of childhood 
infections.\7\ It helps parents ensure that their children attend well-
child visits and receive the immunizations necessary to lower infant 
mortality and reduce the occurrence and length of childhood 
illnesses.\8\ Parental time off facilitates the early detection of 
potential developmental delays at a time when problems can be most 
effectively addressed and interventions identified to minimize them.\9\
---------------------------------------------------------------------------
    \7\ Sheila B. Kamerman, ``Parental Leave Policies: The Impact on 
Child Well-Being.'' In Peter Moss and Margaret O'Brien, eds., 
International Review of Leave Policies and Related Research 2006, 16-
21. London, UK: Department of Trade and Industry, 2006. Retrieved 
October 9, 2013 from www.berr.gov.uk.
    \8\ Ibid.
    \9\ Edward Zigler, Susan Muenchow, and Christopher J. Ruhm, Time 
Off With Baby: The Case for Paid Care Leave. Washington, DC: ZERO TO 
THREE, 2012.
---------------------------------------------------------------------------
    The ability to take leave has benefits for parents, as well. Longer 
leave periods are associated with benefits for the mother, including 
declines in depressive symptoms, a reduction in the likelihood of 
severe depression, and improvement in overall health.\10\ A growing 
body of research confirms the special contribution of fathers in 
encouraging infant play and cognitive development. These studies show 
that fathers who take some time off after the birth or adoption of a 
baby are more likely to be involved in their child's life moving 
forward.\11\
---------------------------------------------------------------------------
    \10\ Pinka Chatterji and Sara Markowitz, Family Leave After 
Childbirth and the Health of New Mothers. National Bureau of Economic 
Research, 2008. Retrieved October 9, 2013, from www.nber.org.
    \11\ Zigler, Muenchow, and Ruhm, Time Off With Baby.
---------------------------------------------------------------------------
    Ensuring that workers have time at home also benefits employers.

    <bullet> It reduces staff turnover and the subsequent training and 
hiring costs associated with new staff.
    <bullet> Attending to a child's early medical needs reduces the 
occurrence and length of childhood illnesses, in turn lowering health 
expenditures.
    <bullet> It can give parents time to search for child care that 
meets the unique needs of their family, thereby facilitating greater 
productivity when they return to their jobs after leave.\12\
---------------------------------------------------------------------------
    \12\ Zigler, Muenchow, and Ruhm, Time Off With Baby.
---------------------------------------------------------------------------
    <bullet> Positive, consistent relationships during a baby's early 
years yield confident individuals who are better equipped for success 
in school and in life,\13\ paving the way for a higher quality 
workforce and strong economic growth.
---------------------------------------------------------------------------
    \13\ From Neurons to Neighborhood.
---------------------------------------------------------------------------
          family and medical leave was an important first step
    Unquestionably, the 1993 Family and Medical Leave Act (FMLA) was a 
major milestone in addressing society's interest in helping families 
balance their work and lives. FMLA allows employees to take up to 12 
weeks of unpaid, job-protected leave to care for newborns, newly 
adopted and foster children, and seriously ill family members, 
including themselves. Of the more than 60 million Americans who have 
taken time off from work under the FMLA since it was enacted more than 
20 years ago,\14\ 21 percent used leave for pregnancy or take care of a 
new child.\15\
---------------------------------------------------------------------------
    \14\ National Partnership for Women and Families. 2007. Family and 
Medical Leave Act. http://www.nationalpartnership.org/site/
PageServer?pagename=ourwork_fmla_Familyand
MedicalLeave (accessed February 11, 2008).
    \15\ Abt Associates Inc. (2012). Family and Medical Leave in 2012: 
Final Report. Prepared for the U.S. Department of Labor. Retrieved July 
10, 2014 from http://www.dol.gov/asp/evaluation/fmla/FMLA-2012-
Executive-Summary.pdf.
---------------------------------------------------------------------------
    Although FMLA has had great success, far too many workers are still 
unable to take leave. The law only applies to employers with at least 
50 employees, so a full 40 percent of the workforce is currently not 
covered by the Federal law.\16\ Even among employees who are eligible, 
more than 3 in 4 (78 percent) reported that they could not afford to 
take the leave that they needed because it was unpaid.\17\
---------------------------------------------------------------------------
    \16\ Ibid.
    \17\ Ibid.
---------------------------------------------------------------------------
    Clearly all too often, out of economic necessity, new parents must 
rush back to work and forgo precious bonding time with their children. 
While a few States and some individual employers provide some paid 
leave, it is not widely available.

    <bullet> Most employed women do not have access to paid maternity 
leave. About one-third of private sector workers (35.1 percent) are 
employed at worksites that offer paid maternity leave to all or most 
female employees, and only about one-fifth (21.6 percent) are employed 
at worksites that offer paid maternity leave to all female 
employees.\18\
---------------------------------------------------------------------------
    \18\ Jacob Klerman, Kelly Daley, and Alyssa Pozniak, Family and 
Medical Leave in 2012: Technical Report. U.S. Department of Labor, 
2012. Retrieved March 4, 2013, from www.dol.gov/whd/fmla/survey.
---------------------------------------------------------------------------
    <bullet> Most working men do not have access to paid paternity 
leave. Of private sector workers, 20 percent are employed at worksites 
that offer paid leave to most male employees, and 9 percent are at 
worksites that offer paid leave to all male employees.\19\
---------------------------------------------------------------------------
    \19\ Ibid.
---------------------------------------------------------------------------
    <bullet> Access to paid maternity leave at large companies is 
decreasing. The percentage of larger employers voluntarily offering 
fully paid leave for new mothers fell from 17 percent in 2005 to 9 
percent in 2012.\20\
---------------------------------------------------------------------------
    \20\ Kenneth Matos and Ellen Galinsky, 2012 National Study of 
Employers. Families and Work Institute, 2012. Retrieved March 4, 2013, 
from www.familiesandwork.org/site/research/reports/NSE_2012.pdf.

    Vulnerable babies have the most to lose. Current policy and 
practice disproportionately jeopardize the development of babies living 
in low-income and poor households because the parents of these children 
are less likely than more affluent parents to have access even to the 
unpaid leave let alone paid time off from work. Low-income parents who 
do have access to unpaid leave benefits often cannot afford to use 
them. Many of these parents work multiple shifts and long hours, and 
still child care costs can be prohibitive.
      zero to three renews its call for national paid family leave
    More than 20 years ago, ZERO TO THREE recommended paid family leave 
as the first step in laying the social-emotional foundation for putting 
infants and toddlers on the path to school readiness. We renew that 
call to action now. A national paid family leave policy would make a 
major statement about how we value the contribution that families make 
to the social and economic fabric of our country by caring for each 
other and preparing our future workforce and citizens. Paid leave would 
help more families take the time off needed to care for other family 
members and start off that critical early relationship between parents 
and babies on sound footing.
    Paid family leave is an issue we as a nation must continue to 
grapple with, as working mothers have become a mainstay of our 
country's economic life. In every State, more than half of all mothers 
with infants are in the labor force and in many States the proportion 
is much larger. Currently, almost two-thirds of mothers with children 
under the age of three work.\21\ About 6 million children under the age 
of three spend some time during the week being cared for by someone 
other than their parents.\22\ Before heading back to the workplace 
after the birth or adoption of a child, parents need time to bond with 
their babies and enable them to form the all-important attachments that 
will help give them a good start in life.
---------------------------------------------------------------------------
    \21\ ZERO TO THREE (2012). National baby facts: Infants, toddlers, 
and their families in the United States. Washington, DC: ZERO TO THREE. 
http://www.zerotothree.org/public-policy/pdf/national-baby-facts.pdf.
    \22\ S. Mamedova and J. Redford. Early Childhood Program 
Participation, From the National Household Education Surveys Program of 
2012 (NCES 2013-029), National Center for Education Statistics, 
Institute of Education Sciences, U.S. Department of Education. 
Washington, DC, 2012.
---------------------------------------------------------------------------
    The benefits of national paid family and medical leave policy 
extend to babies, their families, and to society as a whole.

    <bullet> Babies: Paid leave contributes to the healthy development 
of infants and toddlers.
    <bullet> Family: Paid leave improves outcomes for the entire 
family, including parents and caregivers, as new moms are less likely 
to experience depression and the likelihood of fathers' involvement in 
their child's life moving forward grows.
    <bullet> Society: Paid leave policies can benefit employers, 
taxpayers, and the economy, now and in the future, increasing current 
workers' productivity and starting a strong foundation for the workers 
of the future.

    What is at stake when we talk about family leave is not just 
creating happy babies and happy families--although that is certainly a 
desirable outcome in and of itself. What is at stake is our ability to 
ensure families can provide their children with the optimal conditions 
to lay the foundations for later success. Positive, consistent 
relationships during a baby's first days, months, and years yield 
confident individuals who are better equipped for success in school and 
in life, paving the way for a higher quality workforce and strong 
economic growth.
    As I mentioned, Paid Family Leave is not a new idea for ZERO TO 
THREE. In our 1992 report Heart Start: The Emotional Foundations of 
School Readiness, we recommended providing parental leave financed 
through a social insurance benefit as a basic stepping stone toward 
valuing families and putting babies on the right track to success in 
school and in life. Then, as now, we knew its benefits: that it helps 
give babies, families, and our Nation the start they need to be strong. 
Isn't it about time we acted?
    I thank the subcommittee members for their time and their 
commitment to our Nation's infants, toddlers and their families.

    [Whereupon, at 12:05 p.m., the hearing was adjourned.]

                                   [all]
                                   
                                   
                                   
                                   

      
</pre></body></html>
